<html>
<title> - THE UNITED NATIONS POLICY IN AFRICA</title>
<body><pre>[Senate Hearing 106-872]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-872

                  THE UNITED NATIONS' POLICY IN AFRICA

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE





                       ONE HUNDRED SIXTH CONGRESS



                             SECOND SESSION





                               __________

                             JULY 12, 2000

                               __________





       Printed for the use of the Committee on Foreign Relations








 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
67-707 CC                   WASHINGTON : 2001




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Berman, Eric G., Former Executive Director, United Nations Watch, 
  Belmont, Massachusetts.........................................    40
    Prepared statement...........................................    43
Graham, Reverend William Franklin, III, President, Chairman, and 
  Chief Executive Officer, Samaritan's Purse, Boone, North 
  Carolina.......................................................    33
    Prepared statement...........................................    35
Holbrooke, Hon. Richard C., U.S. Permanent Representative to the 
  United Nations.................................................     2
    Prepared statement...........................................    12

                                 (iii)

  

 
                  THE UNITED NATIONS POLICY IN AFRICA

                              ----------                              


                        Wednesday, July 12, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:39 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
[chairman] presiding.
    Present: Senators Helms [presiding], Lugar, Grams, 
Brownback, Frist, Biden, Kerry, Feingold, Wellstone, and Boxer.
    The Chairman.  The committee will come to order. First of 
all, our first witness, we welcome Ambassador Richard C. 
Holbrooke, whom all of us know and admire. We welcome him to 
this morning's meeting of the Foreign Relations Committee, at 
which we will discuss the United Nations and its efforts in 
Africa. We also welcome my fellow North Carolinian, my good 
friend Franklin Graham, and Mr. Eric Berman.
    In the spring of 1998, President Clinton traveled to Africa 
and proclaimed that a renaissance was under way on that long-
troubled continent. The President, seeking to introduce some 
positive aspects of Africa to the American people, sort of laid 
aside the discussions of war and disease and famine. And while 
there are indeed events worthy of optimism and support, it is 
also clear that long-time problems continue to plague many 
countries in Africa.
    In January the United Nations Security Council focused 
specifically on the African continent during Ambassador 
Holbrooke's Month on Africa. Our distinguished friend 
Ambassador Holbrooke stated that the goals of this exercise 
were: one, to change perceptions about Africa in general; and 
two, to change traditional notions about security concerns in 
Africa to include HIV-AIDS; and three, to help African leaders 
face up to the many conflicts currently raging on that 
continent.
    Now, today for my part I feel it is important to measure 
our progress since January and understand what lessons have 
been learned, if any. In particular, I am concerned about 
ongoing events in Sudan, the peacekeeping mission in Sierra 
Leone, the potential for peace in the Democratic Republic of 
the Congo, and the potential for a United Nations peacekeeping 
mission in Ethiopia and Eritrea.
    Now, Mr. Ambassador, obviously you are not in the position 
of making United States foreign policy, but you can have a 
tremendous and direct impact on how U.S. policy is developed. I 
therefore hope to see you play a somewhat more active role in 
dealing with the horrible crisis in the Sudan, even though it 
was not a specific topic discussed during the Month on Africa.
    How the United Nations responds to the ongoing conflicts in 
Sierra Leone and the Congo and to the developing peace process 
between Ethiopia and other countries will have an obviously 
significant impact on future UN operations. You are well aware 
of all of that, as well as other obvious observations that the 
United Nations can ill afford any future failures.
    Once again, I welcome you this morning, and I look forward 
to hearing the testimony of you and, following you, Franklin 
Graham. You may proceed, sir.

    STATEMENT OF HON. RICHARD C. HOLBROOKE, U.S. PERMANENT 
  REPRESENTATIVE TO THE UNITED NATIONS ACCOMPANIED BY: NANCY 
POWELL, ACTING ASSISTANT SECRETARY OF STATE FOR AFRICAN AFFAIRS

    Ambassador Holbrooke.  Thank you, Mr. Chairman. It is a 
great honor to be back before this committee again today, and 
especially to be asked to testify about Africa, which until 
recently did not receive as much attention from the American 
public and perhaps from the American government as is 
necessary.
    I have a formal statement I would like to submit to the 
record, and let me make a few brief personal observations in 
addition. You listed correctly the goals of the Month of Africa 
and I think that we did succeed in fulfilling them, but the 
goals of a month in the Security Council do not solve the 
problems of Africa. Certainly U.S. perceptions of Africa, the 
first of the three items you listed, have begun to change, and 
I think this hearing is a very important example of that. I 
also note the fact that Senator Feingold and I traveled to the 
region for 2 weeks in December and that Senator Frist chose to 
spend the 4th of July, not in Tennessee, but in southern Sudan, 
in the hospitals in which he spends so much time.
    So I think that both the chairman and ranking minority on 
the African Subcommittee are showing with great time 
commitments their own commitments. I think that is also echoed 
among members of the House of Representatives, and I would 
single out Congressman Reuss and Congressman Payne, who have 
shown similar commitments.
    On the AIDS issue, I am really delighted to be able to 
report to you today that an issue which has never been 
discussed in the Security Council--indeed, no health issue has 
ever been discussed in the Security Council in over 4,000 
meetings--is now on the Council's agenda. Starting with Vice 
President Gore's appearance in New York on January 10th, the 
Council launched the new millennium with a new definition of 
security that includes health issues and AIDS. Next Monday, 
after the Durban conference on AIDS finishes, the head of 
UNAIDS, Dr. Peter Piot, who I am sure you know, will be coming 
to New York to report on Durban. After his report--and I say 
this with some pride at American leadership and at the 
participation of you, Senator Frist, Senator Feingold, Senator 
Boxer (who has co-sponsored one of the most important actions 
on this), and other members of this committee (Gordon Smith, 
who is not here today)--we will pass the first Security Council 
resolution in history on AIDS or any health issue.
    With your permission, Mr. Chairman, I brought copies of the 
resolution which I would like to offer to the committee in 
advance of the vote, so that you will see what it is. I do not 
know who to give them to, but they are right here if somebody 
would like to have them, and may they be introduced into the 
record in advance of the vote.
    [The material referred to follows:]

         United Nations Security Council Resolution on HIV/AIDS

                     DRAFT AS OF 07/11/2000 7:01 AM
    The Security Council,
    Deeply concerned by the extent of the HIV/AIDS pandemic worldwide, 
and by the severity of the crisis in Africa in particular (Previous 
PP2),
    Recalling its 4087th meeting of 10 January 2000, chaired by the 
Vice President of the United States, on ``the situation in Africa: the 
impact of AIDS on peace and security in Africa,'' in which the 
President of the World Bank, the Administrator of the United Nations 
Development Program, and the Executive Director of the Joint United 
Nations Programme on HIV/AIDS (UNAIDS) participated, and welcoming the 
5 July 2000 note from UNAIDS (S/2000/657) which summarizes follow-up 
actions taken to date; (Previous PP1--amended)
    Recalling also the 29 February 2000 special meeting of the Economic 
and Social Council, held at the request of the President of the 
Security Council, on the development aspects of the HIV/AIDS epidemic; 
(new)
    Recalling further the letter of the President of the Council dated 
31 January 2000 addressed to the President of the General Assembly (S/
xxxx/xxx) proposing that the General Assembly review the problem of 
HIV/AIDS in all its aspects and consider new strategies, methods, 
practical activities and specific measures to strengthen international 
cooperation in addressing this problem; (new)
    Welcoming, the decision by the General Assembly to include in the 
agenda of its fifty-fourth session an additional item of an urgent and 
important character entitled ``Review of the problem of HIV/AIDS in all 
its aspects'' [and encourages it to consider convening a special 
session on this issue]; (new)
    [Recognizing that HIV/AIDS is unique in its devastating impact on 
the economic, social, political, and demographic patterns of 
development and security in eroding productivity, depleting workforces, 
orphaning millions of children, and consuming savings and investment in 
the education and health sectors;] (new)

AND/OR

    Recognizing that the spread of HIV/AIDS can have a devastating 
impact on all sectors and levels of society, which in many instances 
has weakened the capacity of affected countries to maintain [order and 
the rule of law] [domestic and regional peace and security], (PP6-a)
    Reaffirming the importance of a coordinated international response 
to the HIV/AIDS pandemic, [given its possible growing contribution] 
[given the epidemic's potential to contribute] to social instability 
and emergency situations, (PP5)
    [Further recognizing that the HIV/AIDS pandemic [not only poses a 
threat to stability and security, but] is also exacerbated by 
conditions of violence and instability, which increase the risk of 
exposure to the disease through large movements of people, widespread 
uncertainty over conditions, and reduced access to medical care,] (PP8)
    Stressing that HIV/AIDS poses a global risk to people of all 
continents, (PP9--amended)
    Recognizing the need to incorporate HIV/AIDS prevention awareness 
skills and advice in aspects of the United Nations Department of 
Peacekeeping Operations training for peacekeeping personnel, welcoming 
the 20 March 2000 Report of the United Nations Special Committee on 
Peacekeeping (S/2000/xxx) which affirmed this need, and commending the 
efforts by DPKO already made in this regard,
    Taking note of the report of the Secretary-General for the 
Millennium Assembly (A/54/2000), and in particular, those sections 
where he observes that the spread of HIV/AIDS is rapidly becoming a 
social crisis on a global scale, [and calls for coordinated and 
intensified international action to reduce the HIV infection rates in 
persons 15 to 24 years of age by 25 percent by the year 2010,]
    Commending the efforts by UNAIDS to coordinate the work of member 
states and international organizations as regards the HIV/AIDS pandemic 
and to intensify efforts to address HIV/AIDS in all appropriate fora,
    Bearing in mind the Council's responsibility for the maintenance of 
international peace and security (Previous PP3--amended),

          1. Expresses Concern at the damaging impact of HIV/AIDS on 
        international peacekeeping operations and requests the 
        Secretary-General to ensure the provision of mission-specific 
        training for all peacekeepers on issues related to the 
        prevention of the spread of HIV/AIDS, and ensure the further 
        development of pre-deployment and on-going training for all 
        peacekeepers on issues related to the prevention of the spread 
        of HIV/AIDS,

                  1. Urges all states to acknowledge the problem of 
                HIV/AIDS directly, including in the uniformed services 
                and military, and to develop, in consultation with the 
                international community and UNAIDS, effective long-term 
                domestic national strategies to educate civilians and 
                uniformed personnel on the prevention of the spread of 
                HIV/AIDS,
                  2. Urges all member states to institute voluntary and 
                confidential counseling and testing for HIV/AIDS for 
                civilians and members of the uniformed services, 
                including the military, especially for troops to be 
                deployed to international peacekeeping missions, 
                because of the proven effects of testing to reduce 
                high-risk behaviors,
                  3. Further urges countries to increase international 
                cooperation among national military organizations to 
                assist with the creation and execution of HIV/AIDS 
                prevention, voluntary and confidential testing, 
                counseling and treatment policies,
                  4. Requests the Secretary General to ensure that 
                UNAIDS cooperates with member states, including those 
                states that contribute peacekeeping troops, to 
                establish voluntary consultations and a database to 
                track such countries' HIV/AIDS prevention education, 
                testing, deployment, counseling and treatment policies,
                  5. Calls upon the leadership of all UN organizations 
                to address the HIV/AIDS pandemic in the context of 
                their organizations' respective mandates and to adjust 
                their organizations' activities accordingly to ensure 
                that they are assisting wherever possible in global 
                efforts against the HIV/AIDS pandemic,
                  6. Decides to continue to seek information and 
                guidance on this issue from all appropriate sources,
                  7. Decides to remain seized of the matter.

    Ambassador Holbrooke.  Mr. Chairman, you said help African 
leaders face up to their responsibilities and problems. That is 
the dilemma. You have mentioned four issues: Sudan, Sierra 
Leone, Congo, and Ethiopia-Eritrea. Let me very briefly address 
each one and then I know you will have questions. I would like 
to defer on Sudan because I have not worked on the Sudan much 
in the UN context and, if there are any questions that are more 
properly addressed to the Department's Washington-based 
representatives, I am accompanied by Nancy Powell, the Acting 
Assistant Secretary for African Affairs. Her boss Susan Rice is 
in Togo today at the OAU summit in Lome, working very hard on 
these same issues, including, very specifically, Sudan.
    On Sierra Leone, we are in the middle of a very intense 
debate in New York on how to proceed. I would like to submit 
for the record a letter that governs our policy on Sierra Leone 
that I addressed to Senator Gregg. At the end of May, I gave 
you an advance copy of the letter, as you remember, and now I 
can update you on the five parameters of that relationship.
    [The material referred to was not available at press time.]
    Ambassador Holbrooke.  But let me say where we are on 
Sierra Leone. The situation is not as bad as it was a year ago. 
It is not as bad as it was 3 or 4 months ago. But it is not 
good. The RUF is still in the field. It still controls most of 
the diamond fields, although its leader, Foday Sankoh, is in 
jail, where he belongs. And we will introduce very soon a 
Security Council resolution that extends the international war 
crimes umbrella of Yugoslavia and Rwanda to cover him. It will 
have a slightly different structure, because we do not want to 
create a third tribunal. They are very expensive, and they are 
slow. The two existing tribunals cost the UN system $100 
million or more; so, extending the international unbrella would 
be preferable to a third tribunal.
    We have that resolution here and I am also prepared to 
share it with you on a more private basis. I would rather that 
not be distributed publicly because it is being--its formal 
introduction is being delayed pending another problem we have 
in the Sierra Leone, and that is the fact that 230 peacekeepers 
are effectively being held hostage, although they still have 
their weapons, in eastern Sierra Leone. Most of those are 
Indians, but there is at least one British national in the 
group and several other nationalities. That is a very serious 
problem.
    The UN is considering an increase in the size of its forces 
in Sierra Leone. We have told the United Nations that we will 
not support an increase when the current deployment is so 
messed up. We consider the current UN performance in Sierra 
Leone below the acceptable standards. It is a command in name 
only. It is a mess. Their own report and analysis of the Sierra 
Leone mission found it seriously delinquent. It needs to be 
shaped up.
    Our position on the resolution under debate in New York 
now--a position I took in closed session yesterday and am 
privileged to share with you today in this hearing, upon the 
conclusion of which I will return to New York and continue the 
debate--is to not add any forces to the Sierra Leone operation 
until the current forces are structured to perform adequately.
    Now, for the record, the current authorization is 13,000 
troops, as notified to the Congress when it was passed. There 
are about 11,500 in the current command. They do not have an 
adequate communications structure. You cannot have that many 
troops without a single command and control and communications 
structure. They are deficient in helicopters. The Russians are 
going to send some helicopters, and I think we should all take 
note in a positive way that the Russians are going to put a 
helicopter unit into Sierra Leone. That is entirely a positive 
action.
    However, we need a more aggressive policy against the 
machete-wielding RUF. We need a UN force which will be more 
aggressive and go after them and use the authority it has; and 
if it needs more authority, Mr. Chairman, the United States 
will support a stronger mandate.
    There is a dispute over the mandate. Some people think the 
current mandate is sufficient, but has not been sufficiently 
implemented. That is essentially the British position. Some 
people, and this would include me, think that because the 
current mandate has been not well understood, we should clean 
up the mandate before we consider any additional troops.
    Either way, I want to state clearly for the record in the 
presence of you and your colleagues, so many of whom, including 
particularly, Senator Feingold, as well as Senator Frist and 
Senator Kerry, have raised the question of not only Foday 
Sankoh, but also Charles Taylor. I want to be very clear on Mr. 
Taylor and Liberia. Last week the Security Council passed 
another first, the first resolution on diamonds in the history 
of the Security Council. I also have that with me and, with 
your permission, I would also like to make that available to 
your committee for the record.
    [The material referred to follows:]

         United Nations Security Council Resolution on HIV/AIDS

                     DRAFT AS OF 07/11/2000 7:01 AM
    The Security Council,
    Deeply concerned by the extent of the HIV/AIDS pandemic worldwide, 
and by the severity of the crisis in Africa in particular (Previous 
PP2),
    Recalling its 4087th meeting of 10 January 2000, chaired by the 
Vice President of the United States, on ``the situation in Africa: the 
impact of AIDS on peace and security in Africa,'' in which the 
President of the World Bank, the Administrator of the United Nations 
Development Program, and the Executive Director of the Joint United 
Nations Programme on HIV/AIDS (UNAIDS) participated, and welcoming the 
5 July 2000 note from UNAIDS (S/2000/657) which summarizes follow-up 
actions taken to date; (Previous PP1--amended)
    Recalling also the 29 February 2000 special meeting of the Economic 
and Social Council, held at the request of the President of the 
Security Council, on the development aspects of the HIV/AIDS epidemic; 
(new)
    Recalling further the letter of the President of the Council dated 
31 January 2000 addressed to the President of the General Assembly (S/
xxxx/xxx) proposing that the General Assembly review the problem of 
HIV/AIDS in all its aspects and consider new strategies, methods, 
practical activities and specific measures to strengthen international 
cooperation in addressing this problem; (new)
    Welcoming, the decision by the General Assembly to include in the 
agenda of its fifty-fourth session an additional item of an urgent and 
important character entitled ``Review of the problem of HIV/AIDS in all 
its aspects'' [and encourages it to consider convening a special 
session on this issue]; (new)
    [Recognizing that HIV/AIDS is unique in its devastating impact on 
the economic, social, political, and demographic patterns of 
development and security in eroding productivity, depleting workforces, 
orphaning millions of children, and consuming savings and investment in 
the education and health sectors;] (new)

AND/OR

    Recognizing that the spread of HIV/AIDS can have a devastating 
impact on all sectors and levels of society, which in many instances 
has weakened the capacity of affected countries to maintain [order and 
the rule of law] [domestic and regional peace and security], (PP6-a)
    Reaffirming the importance of a coordinated international response 
to the HIV/AIDS pandemic, [given its possible growing contribution] 
[given the epidemic's potential to contribute] to social instability 
and emergency situations, (PP5)
    [Further recognizing that the HIV/AIDS pandemic [not only poses a 
threat to stability and security, but] is also exacerbated by 
conditions of violence and instability, which increase the risk of 
exposure to the disease through large movements of people, widespread 
uncertainty over conditions, and reduced access to medical care,] (PP8)
    Stressing that HIV/AIDS poses a global risk to people of all 
continents, (PP9--amended)
    Recognizing the need to incorporate HIV/AIDS prevention awareness 
skills and advice in aspects of the United Nations Department of 
Peacekeeping Operations training for peacekeeping personnel, welcoming 
the 20 March 2000 Report of the United Nations Special Committee on 
Peacekeeping (S/2000/xxx) which affirmed this need, and commending the 
efforts by DPKO already made in this regard,
    Taking note of the report of the Secretary-General for the 
Millennium Assembly (A/54/2000), and in particular, those sections 
where he observes that the spread of HIV/AIDS is rapidly becoming a 
social crisis on a global scale, [and calls for coordinated and 
intensified international action to reduce the HIV infection rates in 
persons 15 to 24 years of age by 25 percent by the year 2010,]
    Commending the efforts by UNAIDS to coordinate the work of member 
states and international organizations as regards the HIV/AIDS pandemic 
and to intensify efforts to address HIV/AIDS in all appropriate fora,
    Bearing in mind the Council's responsibility for the maintenance of 
international peace and security (Previous PP3--amended),

          1. Expresses Concern at the damaging impact of HIV/AIDS on 
        international peacekeeping operations and requests the 
        Secretary-General to ensure the provision of mission-specific 
        training for all peacekeepers on issues related to the 
        prevention of the spread of HIV/AIDS, and ensure the further 
        development of pre-deployment and on-going training for all 
        peacekeepers on issues related to the prevention of the spread 
        of HIV/AIDS,

                  1. Urges all states to acknowledge the problem of 
                HIV/AIDS directly, including in the uniformed services 
                and military, and to develop, in consultation with the 
                international community and UNAIDS, effective long-term 
                domestic national strategies to educate civilians and 
                uniformed personnel on the prevention of the spread of 
                HIV/AIDS,
                  2. Urges all member states to institute voluntary and 
                confidential counseling and testing for HIV/AIDS for 
                civilians and members of the uniformed services, 
                including the military, especially for troops to be 
                deployed to international peacekeeping missions, 
                because of the proven effects of testing to reduce 
                high-risk behaviors,
                  3. Further urges countries to increase international 
                cooperation among national military organizations to 
                assist with the creation and execution of HIV/AIDS 
                prevention, voluntary and confidential testing, 
                counseling and treatment policies,
                  4. Requests the Secretary General to ensure that 
                UNAIDS cooperates with member states, including those 
                states that contribute peacekeeping troops, to 
                establish voluntary consultations and a database to 
                track such countries' HIV/AIDS prevention education, 
                testing, deployment, counseling and treatment policies,
                  5. Calls upon the leadership of all UN organizations 
                to address the HIV/AIDS pandemic in the context of 
                their organizations' respective mandates and to adjust 
                their organizations' activities accordingly to ensure 
                that they are assisting wherever possible in global 
                efforts against the HIV/AIDS pandemic,
                  6. Decides to continue to seek information and 
                guidance on this issue from all appropriate sources,
                  7. Decides to remain seized of the matter.

                                 ______
                                 

              Security Council Resolution on Diamonds/Arms

    The Security Council,
    Recalling its previous resolutions and the statements of its 
president concerning the situation in Sierra Leone, and in particular 
its resolutions 1132 (1997) of 8 October 1997, 1171 (1998) of 5 June 
1998 and 1299 (2000) of 19 May 2000;
    Affirming the commitment of all states to respect the sovereignty, 
political independence and territorial integrity of Sierra Leone;
    Having considered the report of the Secretary-General of 19 May 
2000 (s12000/455), and in particular paragraph 94;
    Determining that the situation in Sierra Leone continues to 
constitute a threat to international peace and security in the region;
    Acting under Chapter VII of the Charter of the United Nations;
                                   a
    Expressing its concern at the role played by the illicit trade in 
diamonds in fuelling the conflict in Sierra Leone, and at reports that 
such diamonds transit neighbouring countries, including the territory 
of Liberia;
    Welcoming ongoing efforts by interested states, the international 
diamond manufacturers association, the world federation of diamond 
bourses, the diamond high council, other representatives of the diamond 
industry and non-governmental experts to improve the transparency of 
the international diamond trade, and encouraging further action in this 
regard;
    Emphasizing that the legitimate diamond trade is of great economic 
impOrtance for many states, and can make a positive contribution to 
prosperity and stability and to the reconstruction of countries 
emerging from conflict, and emphasizing further that nothing in this 
resolution is intended to undermine the legitimate diamond trade or to 
diminish confidence in the integrity of the legitimate diamond 
industry;
    Welcoming the decision taken by the member states of the economic 
community of West African States (ECO WAS) at their Abuja summit on 28-
29 May 2000 to undertake a regional inquiry on the illegal trade in 
diamonds;
    Taking note of the letter of 29 June 2000 to its president from the 
permanent representative of Sierra Leone to the United Nations and its 
enclosure (s/2000/641);
          1. Decides that all states shall take the necessary measures 
        to prohibit the direct or indirect import of all rough diamonds 
        from Sierra Leone to their territory;
          2. Requests the government of Sierra Leone to ensure, as a 
        matter of urgency, that an effective certificate of origin 
        regime for trade in diamonds is in operation in Sierra Leone;
          3. Also requests states, relevant international organizations 
        and other bodies in a position to do so to offer assistance to 
        the government of Sierra Leone to facilitate the full operation 
        of an effective certificate of origin regime for Sierra Leone 
        rough diamonds;
          4. Further requests the government of Sierra Leone to notify 
        the committee established by resolution 1132 (1997) (``the 
        Committee'') of the details of such a certificate of origin 
        regime when it is fully in operation;
          5. Decides that rough diamonds controlled by the government 
        of Sierra Leone through the certificate of origin regime shall 
        be exempt from the measures imposed by paragraph 1 above when 
        the committee has reported to the council, taking into account 
        expert advice obtained at the request of the committee through 
        the Secretary-General, that an effective regime is fully in 
        operation;
          6. Decides that the measures referred to in paragraph 1 above 
        are established for an initial period of 18 months and affirms 
        that, at the end of this period, it will review the situation 
        in Sierra Leone, including the extent of the government's 
        authority over the diamond-producing areas, in order to decide 
        whether to extend these measures for a further period and, if 
        necessary, to modify them or adopt further measures;
          7. Further decides that the committee shall also undertake 
        the following tasks:
                  (a) to seek from all states further information 
                regarding the action taken by them with a view to 
                implementing effectively the measures imposed by 
                paragraph 1 above;
                  (b) to consider information brought to its attention 
                concerning violations of the measures imposed by 
                paragraph 1 above, identifying where possible persons 
                or entities, including vessels, reported to be engaged 
                in such violations;
                  (c) to make periodic reports to the Security Council 
                on information submitted to it regarding alleged 
                violations of the measures imposed by paragraph 1 
                above, identifying where possible persons or entities, 
                including vessels, reported to be engaged in such 
                violations;
                  (d) to promulgate such guidelines as may be necessary 
                to facilitate the implementation of the measures 
                imposed by paragraph 1 above;
                  (e) to continue its cooperation with other relevant 
                sanctions committees in particular that established 
                pursuant to Resolution 985 (1995) of 13 April 1995 
                concerning Liberia and that established pursuant to 
                Resolution 864 (1993) of 15 September 1993 concerning 
                the situation in Angola;
          8. Requests all states to report to the committee established 
        by resolution 1132 (1997), within 30 days of the adoption of 
        this resolution, on the actions they have taken to implement 
        the measures imposed by paragraph 1 above;
          9. Calls upon all states, in particular those through which 
        rough diamonds from Sierra Leone are known to transit, and all 
        relevant international and regional organizations to act 
        strictly in accordance with the provisions of this resolution 
        notwithstanding the existence of any rights or obligations 
        conferred or imposed by any international agreement or any 
        contract entered into or any licence or permit granted prior to 
        the date of adoption of this resolution;
          10. Encourages The International Diamond Manufacturers 
        Association, The World Federation of Diamond Bourses, The 
        Diamond High Council and all other representatives of the 
        diamond industry to work with the government of Sierra Leone 
        and the committee to develop methods and working practices to 
        facilitate the effective implementation of this resolution;
          11. Invites states, international organizations, members of 
        the diamond industry and other relevant entities in a position 
        to do so to offer assistance to the government of Sierra Leone 
        to contribute to the further development of a well-structured 
        and well-regulated diamond industry that provides for the 
        identification of the provenance of rough diamonds;
          12. Requests the committee to hold an exploratory hearing in 
        new york no later than 31 July 2000 to assess the role of 
        diamonds in the Sierra Leone conflict and the link between 
        trade in Sierra Leone diamonds and trade in arms and related 
        materiel in violation of Resolution 1171(1998), involving 
        representatives of interested states and regional 
        organizations, the diamond industry and other relevant experts, 
        requests the Secretary-General to provide the necessary 
        resources, and further requests the committee to report on the 
        hearing to the council;
          13. Welcomes the commitments made by certain members of the 
        diamond industry not to trade in diamonds originating from 
        conflict zones, including in Sierra Leone, urges all other 
        companies and individuals involved in trading in rough diamonds 
        to make similar declarations in respect of Sierra Leone 
        diamonds, and underlines the importance of relevant financial 
        institutions encouraging such companies to do so;
          14. Stresses the need for extension of government authority 
        to the diamond-producing areas for a durable solution to the 
        problem of illegal exploitation of diamonds in Sierra Leone;
          15. Decides to conduct a first review on the measures imposed 
        by paragraph 1 above no later than 15 September 2000, and every 
        six months thereafter on the measures imposed by paragraph 1 
        above, and thereafter every six months after the adoption of 
        this resolution;
          16. Urges all states, relevant United Nations bodies and, as 
        appropriate, other organizations and interested parties to 
        report to the committee information on possible violations of 
        the measures imposed by paragraph 1 above;
                                   b
    Stressing the need to ensure effective implementation of the 
measures concerning arms and related materiel imposed by paragraph 2 of 
Resolution 1171 (1998);
    Stressing the obligation of all member states, including those 
neighboring Sierra Leone, to comply fully with the measures imposed by 
the council;
    Recalling the ECOWAS Moratorium on the Importation, Exportation and 
Manufacture of Light Weapons in West Africa adopted in Abuja on 31 
October 1998 (s/1998/1194, annex);
          17. Reminds states of their obligation to implement fully the 
        measures imposed by Resolution 1171(1998), and calls upon them, 
        where they have not already done so, to enforce, strengthen or 
        enact, as appropriate, legislation making it a criminal offence 
        under domestic law for their nationals or other persons 
        operating on their territory to act in violation of the 
        measures imposed by paragraph 2 of that resolution, and to 
        report to the committee not later than 31 July 2000 on the 
        implementation of those measures;
          18. Urges all states, relevant United Nations bodies and, as 
        appropriate, other organizations and interested parties to 
        report to the committee information on possible violations of 
        the measures imposed by the council;
          19. Requests the Secretary-General, in consultation with the 
        committee, to establish a panel of experts, for an initial 
        period of four months, consisting of no more than five members:
                  (a) to collect information on possible violations of 
                the measures imposed by paragraph 2 of Resolution 1171 
                (1998) and the link between trade in diamonds and trade 
                in arms and related materiel including through visits 
                to Sierra Leone and other states as appropriate, and 
                making contact with those they consider appropriate, 
                including diplomatic missions;
                (b) to consider the adequacy, for the purpose of 
                detecting flights of aircraft suspected of carrying 
                arms and related materiel across national borders in 
                violation of the measures imposed by paragraph 2 of 
                Resolution 1171 (1998), of air traffic control systems 
                in the region;
                  (c) to participate, if possible, in the hearing 
                referred to In paragraph 13 above;
                  (d) to report to the council through the committee 
                with observations and recommendations on strengthening 
                the implementation of the measures imposed by paragraph 
                2 of Resolution 1171 (1998), and of those imposed by 
                paragraph 1 above, no later than 31 October 2000;
    And further requests the Secretary-General to provide the necessary 
resources;
          20. Expresses its readiness, on the basis, inter alia, of the 
        report produced pursuant to paragraph 29 (d) above, to consider 
        appropriate action in relation to states that it determines to 
        have violated the measures contained in Resolution 1171(1998) 
        and paragraph 1 above;
          21. Urges all states to cooperate with the panel in the 
        discharge of its mandate, and underlines, in this regard, the 
        importance of the cooperation and technical expertise of the 
        Secretariat and other parts of the United Nations system;
          22. Requests the committee to strengthen existing contacts 
        with regional organizations, in particular ECOWAS and the 
        Organization of African Unity, and relevant international 
        organizations, including Interpol, with a view to identifying 
        ways to improve effective implementation of the measures 
        imposed by the council in paragraph 2 of Resolution 1171 
        (1998);
          23. Requests the committee to make information it considers 
        relevant publicly available through appropriate media, 
        including through the improved use of information technology;
          24. Requests the Secretary-General to publicize the 
        provisions of this resolution and the obligations imposed by 
        it;
          25. Decides to remain actively seized of the matter.

    Ambassador Holbrooke.  This resolution is clearly designed 
to make clear to the world that we consider the Liberian role 
in trafficking diamonds unacceptable and Mr. Taylor's role to 
be irresponsible and conducive to disruption throughout the 
area. He must either get those, help get those Indian hostages 
out and stop this, or face the international consequences of 
his behavior.
    Right now the reports from Liberia are most distressing. He 
is part of the problem; he has not been part of the solution, 
and that is simply an unacceptable situation. This resolution 
on diamonds is a real first, and I would note for the record 
that the day after it was produced DeBeers called it a historic 
step and said they would welcome it. So the diamond industry is 
falling into line behind us.
    As some of your colleagues who have pushed for this for 
over a year will tell me, we should have done this a year ago, 
and I agree with that. This resolution should have been passed 
a year ago. But better late than never, and here we are with 
another first.
    We need a very aggressive effort against the RUF, much more 
pressure on Liberia to behave; and finally, on Sierra Leone, 
Mr. Chairman, we need a very aggressive policy of strengthening 
Nigeria and other democratic states in West Africa, like Ghana. 
In that regard, Mr. Chairman, I want to mention this morning, I 
do not know if it has been already announced, if it has not let 
this be the announcement, that Secretary Albright is sending a 
team headed by Under Secretary Pickering to West Africa 
tomorrow. Ambassador Pickering is in Tokyo today preparing for 
the summit in Okinawa. He and an inter-agency team, including 
NSC, DOD, JCS, and a representative from our office in New 
York, will be in Abuja and other West African countries 
starting tomorrow.
    This team's main mission, in close consultation with you, 
is to come up with a long-term program to strengthen Nigeria, 
to strengthen its military. When I say strengthen, Mr. 
Chairman, I mean democratize and civilianize and equip and 
train. You and I have talked about this privately, as have I 
with Senator Feingold and others. Nigeria is one of the most 
important countries, not just in Africa but in the whole world. 
President Obisanjo has brought democracy back. The military 
must be modernized and civilianized and democratized, and it 
must help us take the RUF down in Sierra Leone.
    So I am privileged to call your attention to Mr. 
Pickering's trip. He intends to report to your committee when 
he gets back. Whatever he proposes will require a joint 
Congressional-Executive Branch planning for a long-term 
program, which I hope will start this year and be reconsidered 
by the next administration and the next Congress.
    Moving on to the Congo, the situation in the Congo has 
deteriorated significantly on two fronts since I last reported 
to you. One, in Kinshasa, the capital of the Congo, the 
government of President Kabila has declared an all-out attack 
on the national dialogue facilitator, Mr. Masire, the former 
President of Botswana. This is a very serious attack on the 
Lusaka process. If former President Masire cannot do his job, 
the Lusaka peace process laid out by the African leaders 
themselves is not going to be able to move forward.
    Because of the fact that the Kinshasa government has put 
itself against Mr. Masire's efforts, the Secretary General of 
the United Nations, Kofi Annan, has slowed down the deployment 
under phase two that you have already approved. Your approval 
and the letter you and Senator Feingold and others sent us was 
contingent on fulfillment of Lusaka. So I think that if you 
analyze what the Secretary General has done, I think we would 
all agree that slowing down the deployments was appropriate. 
They have not stopped completely. The Tunisians are in the 
process of sending a very important headquarters unit into 
Kinshasa, and we are very grateful for your support in this 
regard.
    The second problem in Congo is very much more serious. Two 
of the forces allied against Kabila, the Rwandans and the 
Ugandans, set to fighting each other 2 months ago this week in 
Kisangani, a city of 2 million people in the deepest part of 
Central Africa, probably the most inaccessible large city in 
the world because you can only get there by plane. One of the 
airports is controlled by each of the contending parties, and 
these fights were extremely deleterious to the people of the 
area.
    Kinsangani is an important diamond center, incidentally, so 
that the diamonds once again are--I think in a way the tragedy 
of the Congo, Sierra Leone, and Angola is that they are so 
rich, and because they are so rich outsiders, first European 
colonialists and now thuggish leaders from the region, keep 
exploiting them.
    But in any case, Kisangani has been the subject of a 
horrific set of fights. There is a ceasefire in place. The 
Rwandans and the Ugandans have pulled back. But two rebel 
groups, one headed by Mr. Ilunga, one headed by Mr. Bemba, both 
of whom Senator Feingold and I met with when we were in 
Kampala, are threatening to go at each other's throats. The 
Rwandans and the Ugandans have asked for United Nations forces. 
The Pakistanis have indicated readiness to send troops as soon 
as they are requested, and we are trying to get the details of 
such a deployment ready now.
    This is a very difficult deployment. It is the classic 
dilemma. If we do nothing, the war could break out again and we 
will all get sucked into an expensive refugee and relief 
operation in one of the most inaccessible places on Earth. If 
we get involved--by the way, ``we'' is not the United States; 
``we'' is the UN. But the U.S. is part of the UN. We are the 
most important member. If we, parentheses, ``the UN,'' gets 
involved, the question is does the UN get involved without the 
ability to determine the outcome.
    It is a terrible decision. But we should all be grateful to 
Pakistan for the willingness to send combat-ready troops to 
Kisangani. I want to be up front, as I always am with you, Mr. 
Chairman, and state that the United States will encourage the 
Pakistanis to move forward while working with them to make sure 
that we get this right. This is not easy, but if a country like 
Pakistan is willing to send combat troops to demilitarize 
Kisangani and prevent the outbreak of another major war, we 
should not stand in their way.
    We will return to your committee with details when they are 
worked out. This is a work in progress.
    Finally, Ethiopia-Eritrea. The fighting was inexcusable. 
The two leaders do not deserve any credit for a ceasefire for a 
war that never should have taken place. I will not go into the 
details of what caused it because I will leave those to 
historians. There is a ceasefire in place now and the UN is 
going to be asked to send a border observer force of a few 
thousand people. The formal request will come in next week.
    Of all the issues we are talking about today, this is the 
easiest. This is a classic UN border patrol operation, where 
Sierra Leone and Congo are sort of civil war situations, the 
kind that any military hates the most, like Kosovo. I mean, 
Sierra Leone and Congo are the same thing as Kosovo: Albanians 
and Serbs or Rwandans and Ugandans on somebody else's soil, or 
the RUF and the Sierra Leone army.
    But this one is pretty clear-cut. We will come to you with 
a formal notification when we know what it is. It will come in 
two forms. The UN is going to send 100 advance observers 
immediately and we will notify you formally, but I would hope 
you would treat this hearing as the beginning of the formal 
notification process. We will give you a written letter from 
the Secretary of State or Barbara Larkin within a few days on 
the 100 notification.
    Then there will be a larger request for, I am guessing, 
between 2 and 4,000 observers. This is a low-risk operation, 
but it is another additional peacekeeping effort by the UN, and 
I hope in the questions and answers, Mr. Chairman, I can 
address the larger issue of UN peacekeeping in the context of 
the Helms-Biden reform package, because it is far and away the 
issue I spend the most time on in New York.
    Once again, Mr. Chairman, thank you for inviting me. It is 
an honor to share the platform with Franklin Graham. I am 
delighted, as I know we all are, to hear that his father's 
health has been improving, and it is an honor to be here today.
    [The prepared statement of Ambassador Holbrooke follows:]

         Prepared Statement of Ambassador Richard C. Holbrooke

    Mr. Chairman, it is an honor to be here today to testify before 
your committee. Your continued interest in African issues, and this 
committee's leadership, are absolutely essential in our common effort 
to help the people of Africa develop a future of peace, prosperity and 
freedom. As you know, Mr. Chairman, along with President Clinton and 
Secretary Albright, I have made Africa one of my highest priorities 
during my tenure in New York. To my mind, there is no collection of 
states in greater need--or where our efforts could do more good--than 
those of Africa.
    Beyond a doubt, Africa is the main arena for most of the UN's 
operations--whether we're talking about helping to prevent, stabilize 
or resolve conflicts; promoting democracy and rule of law; fighting 
disease; assisting refugees both internally and across borders; 
providing development assistance; or helping establish education and 
job training programs. Through the UN and other international 
institutions, as well as bilaterally, the United States has a critical 
role to play. Of course, there is a lot that the United States does 
that falls outside the purview of the UN, and we look for leadership 
from and work very closely with the State Department's Africa Bureau, 
which is ably led by my colleague Susan Rice. Today Susan is in Lome, 
Togo to attend the Organization for African Unity (OAU) summit, so I'm 
pleased to be joined here by her principal deputy, Nancy Powell.
    Mr. Chairman, it was just over a year ago that I first testified 
before this committee in my nomination hearings to become U.S. 
Ambassador to the United Nations. In those hearings, I pledged that I 
would do all I could to renew and revitalize America's relationship 
with the United Nations. We agreed that the UN was flawed but 
indispensable, and that to warrant continued American support, it 
needed to implement serious reforms.
    While the UN still has a long way to go, the last year has seen 
some important progress. Most important, of course, was our agreement 
last November over our financing for the UN. And as we discussed last 
January when you, Senator Biden, Senator Warner and many members of 
this Committee came to New York, and again in March, when you hosted 
the entire UN Security Council for an historic meeting in this very 
room, we have an ambitious agenda for UN reform. In recent months, we 
have proposed ways to strengthen the role of the Secretary General and 
make the Department of Peacekeeping Operations more effective, 
efficient and financially equitable. I have been intensely ihvolved in 
negotiations to revise the peacekeeping scale of assessments, and am 
hopeful that we will come to an agreement by the end of the year.
    Mr. Chairman, the UN needs to implement these reforms so that it is 
better able to help people in need in places like Africa. The past year 
has been one of remarkable hardship for far too many Africans. We've 
seen conflicts fester in Congo, Ethiopia-Eritrea, Sierra Leone, Sudan 
and Burundi. We've seen the HIV/AIDS pandemic explode, the challenges 
of refugees and the internally displaced grow even larger, massive 
flooding in Southern Africa and a drought of historic proportion in 
East Africa. And we've seen the fragility of democracy in places like 
Zimbabwe. All this means that the UN's commitments--and our 
responsibilities--to Africa have increased exponentially. And this 
means that what happens in Africa has greater relevance for the United 
States.
    Mr. Chairman, we have an interest in helping Africa become more 
peaceful and prosperous. We have an interest in helping Africans 
resolve their conflicts and rid their societies of horrible diseases 
like HIV/AIDS. And we have an interest in helping Africa's people build 
societies based on democracy, liberty and political freedom.
    Despite Africa's profound troubles, we cannot simply build a wall 
around a continent--particularly in world defined by globalization, 
where borders are even more permeable and the old rules of 
international politics even less applicable. The mantra ``African 
solutions for African problems'' no longer captures either the breadth 
of the challenge or the effort required for a solution. Africa's 
problems are the world's problems--and we have to work together 
globally to find the right solutions.
    We must also not lose sight of Africa's potential. The transition 
to democracy in Nigeria contrasts sharply with the instability of the 
Congo; for every tumultuous election, like last month's in Zimbabwe, 
there is a smooth process, as in Senegal. Their success requires 
regional stability, and therefore, global action.
    Perhaps nothing is more illustrative of this point than the scourge 
of HIV/AIDS and what it's doing to Africa. As recently as a year ago, 
few would have considered AIDS as part of a discussion of foreign 
policy (indeed, our idea to hold last January's special Security 
Council session on AIDS was initially met with some resistance, 
including from inside the U.S. Mission). But today, few doubt that HIV/
AIDS is a top-shelf national security issue, particularly as it relates 
to Africa.
    Last week in the Security Council, I introduced for the United 
States an historic resolution on HIV/AIDS. If passed, it will be the 
first Security Council resolution focused exclusively on a health 
issue. It recognizes that the HI V/AIDS pandemic is so widespread and 
menacing that it poses a threat to international stability and 
security. The resolution's ultimate goal is to increase international 
intensity and coordination against HIV/AIDS and therefore calls for a 
number of measures to address the pandemic on all fronts, on all 
continents, in the civilian and military populations.
    Our resolution urges UN member states to create effective long-term 
domestic strategies to prevent further spread of HIV. It also calls on 
the UN to ensure robust training to protect peacekeepers from 
contracting and spreading HIV, and urges member states to institute 
voluntary and confidential testing of all civilians and the military, 
especially peacekeepers. Finally, it asks the Secretary General to 
develop the means to track nations' HIV/AIDS policies in military 
forces around the world.
    Mr. Chairman, these efforts exemplify one of the primary purposes 
for which the United Nations was created over a half-a-century ago--to 
galvanize international action to meet common threats. AIDS is not just 
the problem of a single country or a single continent. You cannot deny 
AIDS a visa; you cannot place in embargo on it; you cannot a stop it at 
the border. That's why it is imperative that we work together. Today, 
in Durban, South Africa, international AIDS experts from the around the 
world are meeting to discuss ways to address this horrible plague. And 
in its remaining months in office, the Clinton Administration will 
continue to work hard to build on this momentum, and we'll be looking 
for your leadership and support.
    Mr. Chairman, in addition to HIV/AIDS, one of the greatest 
challenges the UN faces in Africa is in conflict resolution. As I've 
said many times before, peacekeeping is the core task for which the UN 
was formed, and it is the one upon which the UN will ultimately be 
judged. So we must help it get peacekeeping right. Right now in Africa, 
the UN is working to reinforce fragile peace agreements in three key 
areas: the Democratic Republic of the Congo, Ethiopia-Eritrea, and 
Sierra Leone. Allow me to discuss each briefly in turn:

    In the Democratic Republic of Congo, we're working to revitalize 
the sagging Lusaka peace process. Unfortunately, despite major UN 
efforts both in New York and the field, the parties have made little 
progress toward implementing the terms of the Lusaka Agreement. 
Fighting continues in Equateur province in violation of both the Lusaka 
and Kampala cease-fire agreements. Kabila's government has persistently 
blocked organization of the National Dialogue, which is intended to 
reach an internal settlement among the Congolese parties. In June, the 
the Kinshasa government went so far as to order its police to forcibly 
close the Kinshasa office of the facilitator, former Botswanan 
President Masire. And the recent fighting between Rwanda and Uganda in 
Kisangani severely undermined the peace process.
    In the light of these developments, UN Secretary General Annan has 
determined that the UN should not yet move to the next phase of 
peacekeeping--MONUC personnel do not yet have the security, freedom of 
movement and cooperation from the parties necessary for them to 
effectively carry out their mandate in the Congo. At this time, 
therefore, the UN does not intend further deployments of MONUC beyond 
the 257 military observers now in the field. We fully support this 
decision--after all, we pushed the UN to adopt the phased and 
conditional approach last winter.
    We are also examining alternatives to help stabilize the situation 
in Kisangani, which is deplorable. Mr. Chairman, I and six of my 
Security Council colleagues were in Congo last May when fighting 
initially broke out. We were then able to negotiate an interim cease-
fire, and we have worked tirelessly with Presidents Museveni and Kagame 
to forge a lasting solution. UN Security Council Resolution 1304 calls 
on Rwanda and Uganda to adhere to the demilitarization of Kisangani. It 
also demands the departure from the city of the armed rebel Congolese 
forces allied with either Rwanda or Uganda.
    Mr. Chairman, the good news is that Rwandan and Ugandan troops have 
withdrawn from Kisangani, monitored by MONUC observers. Moreover, the 
Ugandans and Rwandans are now embarked on a serious effort to reconcile 
their differences. At the same time, however, rebel RCD-Goma rebel 
forces remain in Kisangani, concerned that either the government or 
other rebel forces might seek to take advantage of the military vacuum 
created by Ugandan and Rwandan withdrawal. The total demilitarization 
of Kisangani and a larger MONUC presence in the city are currently 
under review in New York.

    In Ethiopia and Eritrea, the United Nations should be there when 
the two sides decide to bring an end to this deeply tragic and truly 
unnecessary conflict. While there is a formal cessation of hostilities 
agreement in place, much work lies ahead to nail down a comprehensive 
and lasting peace. Negotiations have continued, including last week 
here in Washington, and I think an agreement is in within sight.
    In New York, the Security Council and the Secretary General have 
begun planning for a possible peacekeeping operation focused on the 
Ethiopia-Eritrea border. Mr. Chairman, the United States intends to 
support a resolution in the Security Council authorizing the deployment 
in Ethiopia and Eritrea of up to 100 UN military observers. We will 
soon notify Congress of this. We anticipate that if progress continues, 
it could lead to a regular UN peacekeeping operation for Ethiopia and 
Eritrea.

    And in Sierra Leone, we're continuing to work to revitalize the 
UN's efforts after the RUF savaged the Lome peace process, took 
hostages and attacked UN peacekeepers. The situation remains tense, 
although it has stabilized somewhat since fighting resumed in May. We 
are working closely with the British to coordinate next steps. Two 
weeks ago I met with Foreign Secretary Robin Cook and other British 
officials in London to discuss our common approach. Our main priority 
right now is to strengthen UNAMSIL and the Sierra Leone Army (SLA), so 
they can defend a perimeter around Freetown and the Lungi peninsula. 
Eventually, we anticipate that a revitalized and strengthened UNAMSIL 
will fill-in behind an advancing SLA.
    Our broad objective is to ensure that regional and international 
forces in Sierra Leone, together with the SLA, have the capacity to 
disrupt the RUF's control of Sierra Leone's diamond producing areas and 
prevent it from threatening Sierra Leone's government and terrorizing 
its people. Right now in New York we are reviewing a draft Security 
Council resolution and debating the possible modification of UNAMSIL's 
mandate. Without an expanded mandate, allowing for a more robust force 
to deal with the growing RUF threat, we do not see the rationale for 
expanding UNAMSIL to 16,500 troops.
    In the meantime, Mr. Chairman, we are actively examining all 
options for bolstering West African participation in Sierra Leone. We 
are providing $18 million in drawdown assistance and $2 million under 
the UN Participation Act to support peacekeeping activities in Sierra 
Leone. Much of it is targeted for the West Africans. We're also 
stepping-up our diplomatic engagement. In two days, Under Secretary 
Pickering will lead a week-long, inter-agency mission to West Africa. 
This is an extremely important mission--one that will, among other 
things, lay the groundwork for President Clinton's visit to Nigeria 
next month. Under Secretary Pickering and his team will meet with the 
leaders in Abuja, Accra, Freetown and Bamako to discuss our common 
approach and clarify the extent of potential U.S. assistance. They will 
also meet with President Taylor in Monrovia, clearly stating our 
concerns about that country's role in Sierra Leone.
    We're also very concerned about assuring that Foday Sankoh and 
others suspected of major war crimes in Sierra Leone are held 
accountable. There is wide agreement that Sankoh and other rebel 
leaders need to be subject to a legitimate judicial process; that the 
trial should have substantial international involvement; that the 
proceedings should be based on the principle of law and insulated from 
politics; and that the process begin quickly. We do not seek to create 
a third international war crimes tribunal, but we do believe that those 
accused should be tried under a system that is part of the 
international war crimes structure. Our goal is to create a UN Security 
Council umbrella over the process and to ensure that there is 
accountability for the serious criminal violations against the citizens 
of Sierra Leone and the UN peacekeepers.

    Mr. Chairman, it is these three conflicts--Congo, Ethiopia-Eritrea, 
and Sierra Leone--that comprise the core challenge for UN peacekeeping 
in Africa today. We are under no illusions that success in any of these 
operations will be easy or quick. These conflicts have been long and 
bloody and brutal; they've left deep psychological and social wounds 
that will take some time to heal.
    But because these missions will be difficult cannot be an excuse 
for the UN not to try. If the UN acts, the odds of success may only be 
50-50; but if it steps aside, failure is almost certain. And we should 
be careful not to conflate these crises. Each present unique and 
daunting challenges; they are as different in scope and kind as East 
Timor, South Lebanon and Kosovo. A setback in one does not 
intrinsically mean weakness in another.
    Mr. Chairman, while the conflicts in Congo, Ethiopia-Eritrea and 
Sierra Leone are currently the main focus for UN peacekeeping in 
Africa, there are other African conflicts that the UN, the Clinton 
Administration and this Committee remain deeply concerned about.

    In Burundi, we continue to support facilitator Nelson Mandela in 
his efforts to implement the Arusha agreement. All of the core issues 
are now on the table and are being seriously discussed by the parties. 
But some fundamental questions are still far from resolution, 
confidence and trust levels are still quite low, fighting on the ground 
continues, afid the armed rebels have not yet signaled a clear 
intention to engage fully into the Arusha process. In short, a lasting 
peace agreement is within reach but there is still a ways to go.

    Sudan is one of the world's most depressing and distressing stories 
and, as you know, has one of the continent's (if not the world's) most 
egregious human rights records. The indiscriminate bombing of civilians 
in unacceptable. An already abysmal humanitarian situation there has 
been made worse by a new influx of refugees from the fighting in 
Ethiopia and Eritrea. We also remain very concerned about Sudan's 
continuing support for terrorism. Sudan has not yet complied with 
Security Council Resolution 1044, which called on it to end support for 
terrorism. We are engaging in a dialogue with Sudan on this issue, 
outlining our specific concerns and requirements. In the meantime, the 
sanctions on Sudan will remain in place. The Security Council will 
consider the future of sanctions toward the end of this year, and will 
make a decision based on Sudan's compliance with Resolution 1044. For 
the United States' part, our position is quite simple: we would be 
willing to support a meaningful Security Council response if and only 
if Sudan takes meaningful steps to end its relationship with 
terrorists.

    And in Angola, more must be done to address the horrible 
humanitarian situation there. Last December in Luanda, Senator Feingold 
and I saw first-hand the truly harrowing conditions Angola's people 
must live under. More than one-sixth of Angola's population remains 
internally displaced--which is second only to Sudan. Starvation still 
takes the lives of hundreds of Angolans a day.

    Mr. Chairman, in closing, I'd like to stress that if we expect the 
UN to get peacekeeping right in Africa and elsewhere, we cannot tie one 
hand behind its back. If the African people and their leaders establish 
peace agreements that are viable, if they muster the courage to create 
lasting solutions for their differences, we should be there to support 
them.
    Unfortunately, rather than providing support, we're dangerously 
close to scaling back. The growing chance that there will be 
insufficient funds to pay our UN assessments for African peacekeeping 
is a serious problem. The House mark for FY 2001 for paying UN bills 
for peacekeeping is a one-third cut from the request and specifically 
targets Africa peacekeeping. Mr. Chairman, this simply makes no sense: 
capping UN peacekeeping at $498 million--as the House CJS bill did--
ignores the fact that demands for peacekeeping funding are growing, not 
shrinking.
    Mr. Chairman, lack of financial support to these missions will only 
weaken them, and thereby undermine U.S. efforts to advance our 
interests in Africa. This arbitrary cap will hamper the next 
Administration in advancing its foreign policy agenda from the very 
beginning. Also, this Committee knows that UN members follow the 
Congressional funding actions closely--you saw this first-hand earlier 
this year during your meetings with my fellow UN Ambassadors in New 
York and Washington. Underfunding our ability to pay UN assessments 
harms our ability to shape the peacekeeping agenda and reduces our 
credibility when we attempt to push for UN reforms--including those 
reforms called for in the Heims-Biden legislation. So I hope that this 
Committee will work with us toward full funding of our peacekeeping 
requirements.
    Again, I thank you, Mr. Chairman, and this entire Committee for its 
dedication and leadership on advancing America's interests in Africa 
and at the United Nations. I think we can all agree that what's 
happening in Africa today warrants our concern and action. And I know 
we agree that we have an interest in making the United Nations more 
efficient and effective. The days ahead will require all of us to make 
tough decisions, Mr. Chairman, and I look forward to working with you.

    The Chairman. It is an honor to have you here with us, Mr. 
Ambassador.
    Let me recapitulate. I am going to include your prepared 
remarks and the resolution by the Security Council on HIV-AIDS 
and the Security Council resolution on Diamonds and Arms. There 
was one more.
    Ambassador Holbrooke.  There is a separate resolution I 
would like to share with you and your committee privately, but 
it would be inappropriate, because of the situation with the 
Indian hostages, it would not be fair to the brave Indians to 
introduce that in public at this point.
    The Chairman. Very well.
    Ambassador Holbrooke.  But since I know some of your 
colleagues are concerned about it, I want to be clear with all 
of you that we are not going to leave Foday Sankoh unexamined 
by the international community. In fact, Senator Kerry's 
presence here prompts me to observe that it is his work in 
Cambodia, which is extremely important, that has been the model 
for the structure we are thinking about, with some adjustments 
for local circumstance, in regard to Foday Sankoh. We can go 
into that in more detail, Senator, at the appropriate time.
    The Chairman. Fine. Let me say, Mr. Ambassador, that I and 
others consider this hearing this morning to be sufficiently 
important that we have a printed record of everything that is 
said and everything that is included in writing, for 
distribution beyond the Senate. And by the way, you and 
Franklin Graham will receive undoubtedly questions in writing 
from Senators who could not be here and I want you to do all 
that.
    Now, we are pressed for time a little bit. We have six, 
seven, eight. I tell you what, I am going to forego my 
questions and we will have a 5-minute limit, and I am going to 
tell Senators that if they are going to make a speech and then 
ask a question in the last 10 seconds I am going to rap you out 
of order if you answer.
    All right, I am going to let Senator Lugar.
    Senator Lugar.  I will forego my questions, Mr. Chairman.
    The Chairman. Very well.
    Senator Biden.
    Senator Biden.  I will wait.
    The Chairman. Senator Grams.
    Senator Grams.  I do not have an opening statement, either.
    The Chairman. Questions?
    Senator Grams.  Sure. Thank you very much, Mr. Chairman.
    Mr. Ambassador, welcome. A couple of questions. I know in 
your opening statement you said you had not dealt with Sudan in 
the UN context. I guess the question would be why not, 
considering the humanitarian relief mission is under UN 
control, you know, OLS.
    Ambassador Holbrooke.  I have not dealt with the Sudan 
personally much until the last couple of weeks, the last month, 
because there was no operational issue in which I needed to get 
directly involved. I also had to take the issues in the order 
of where my involvement would make a difference. Additionally, 
the issue was being handled by the State Department at their 
request.
    However, I have been in contact recently with the Sudanese 
Ambassador in New York. I have kept Senator Frist and Senator 
Feingold informed for the subcommittee and the committee. 
Clearly, Sudan is moving into the area of issues that we will 
have to deal with in the near term future.
    Senator Grams.  The Congo, one of the more difficult areas. 
Kofi Annan included in one of his recent reports examples of, 
and I quote, ``serious logistical deficiencies in troops 
already promised for Congo.'' He went on to write, ``One 
country which had undertaken to provide four airfield crash 
rescue units subsequently withdrew the offer and proposed only 
one unit now instead.''
    Ambassador, do you see this as a lack of interest in 
providing troops for a Congo mission, basically as a vote of no 
confidence in the UN peacekeeping opportunities in Congo?
    Ambassador Holbrooke.  Part of this is Congo-driven, 
Senator Grams. But part of it is a fundamental problem with UN 
peacekeeping as it is now being conducted. The same thing you 
just quoted in Congo is true--
    Senator Grams.  It is too thin, do you mean?
    Ambassador Holbrooke.  It is more than that. It is true in 
Sierra Leone, it is true in--there are problems with the UN 
peacekeeping operations almost everywhere except maybe East 
Timor, where it got off to a very good start and is under 
brilliant leadership. And I might add, East Timor is going to 
start drawing down very soon, which means we are going to have 
one example of where peacekeeping does start to head for the 
exits.
    But peacekeeping at the UN, the core function that Franklin 
Roosevelt and Winston Churchill conceived the UN to do in 1944-
45, is become an obligation that is beyond the current capacity 
of the United Nations bureaucracy to carry out. A year ago 
today there was no East Timor mission. Today there are 10,000 
UN forces in East Timor. A year ago today there was no one in 
Kosovo. Today there are 5,000 UN in Kosovo not counting NATO. A 
year ago today, no one in Sierra Leone; today there are over 
11,000. A year ago today, no Congo force; today there is an 
authorization for 5,000 and a few hundred building up. A year 
ago today, Ethiopia-Eritrea was not on the horizon. We are 
going to get a request next week. A year ago today, South 
Lebanon was 4,000 people in a routine maintenance since 1978. 
Now it is going to build to 8,000.
    So of the big six UN peacekeeping operations, five and a 
half of them did not exist a year ago today. There has been not 
one increase of one person in the Office of Peacekeeping at the 
UN, not one. They have 410 people. It is a mess. Civilians are 
doing military work, military are in civilian clothes. There is 
no clear structure. And that is the equivalent of the defense 
department of the UN. There has been no increase in funding.
    The administration feels strongly that the peacekeeping 
account has been underfunded. We are very troubled by the mark 
that has been set in the appropriations process. So when you 
describe the situation in Congo, you could be speaking about 
almost any part of the world.
    The Secretary General has appointed a commission, called 
the Brahimi Commission, headed by Ambassador Brahimi of 
Algeria, to examine this. Their report will come in at the end 
of this month or the beginning of next month. We are pushing 
very hard for major reforms. Some of these reforms, I will say 
frankly, may require an increase in personnel. I do not think 
410 people can do this job. On the other hand, the UN has 800 
people in its public affairs office.
    Senator Grams.  Before I run out of time, do you think that 
more training, more personnel, would have helped in these areas 
or maybe even prevented the Indian peacekeepers from being 
taken hostage, do you think?
    Ambassador Holbrooke.  I think they need--I think there are 
three problems: the financial structure for peacekeeping is a 
mess, and here we are using the Helms-Biden reform and your 
personal efforts, Senator Grams, to get a change and we are 
headed for the denouement at the end of this year. I will be 
happy to brief on that later.
    Secondly, the operations in the field in Sierra Leone, 
Congo, and many other parts of the world are a mess. Sierra 
Leone is much worse than Congo in my view, but they are both a 
mess.
    Third, the structure in New York is not a rational 
structure. We have to decide, we the UN community, which means 
in the end the U.S. because the UN is dependent on the U.S.--if 
we pull back, it collapses--whether it is worth our national 
interest to work part of our foreign policy through the UN, 
make the UN more effective, make peacekeeping more effective. I 
submit to you that it is. But it is going to take a tremendous 
effort.
    The Secretary General would not disagree with anything I 
have said today, although he would be politer in saying it. We 
need reform and that is why he has put his mark down. Your 
comment about the Congo applies equally to the other issues 
that the chairman wishes to discuss today.
    The Chairman. Senator Biden.
    Senator Grams.  Thank you.
    Senator Biden.  I came late, Mr. Chairman. I would be happy 
to yield to the Senator from Massachusetts.
    The Chairman. Proceed, sir.
    Senator Kerry.  Mr. Chairman, thank you very much.
    Mr. Ambassador, welcome. It is good to have you here and I 
want to thank you personally for your help the other day with 
the Secretary General, and I think that that helped us.
    Ambassador Holbrooke.  On Cambodia?
    Senator Kerry.  Yes, and I think that helped us move 
forward.
    Mr. Chairman, thank you also for your help on the AIDS 
title, which I am very hopeful we are going to be able to pass 
through the Senate in the next weeks. I think that has been 
critical and we are very appreciative of it. That is the 
subject I wanted to raise in a couple of contexts, if I may. I 
have three questions. I am going to ask them right up front and 
I hope in the time frame you therefore will be able to answer 
them.
    Number one, you and I testified in March before the House 
Banking Committee on the World AIDS Prevention Trust Fund and 
at that time you made mention of the problem of UN peacekeepers 
spreading AIDS, and that has been interpreted in various ways. 
I thought it might be helpful to have you today clarify exactly 
how you define that problem and what you think we ought to be 
doing about it.
    Secondly, many people believe that the NGO's, the faith-
based organizations, various other entities, can deal with the 
AIDS problem in sub-Saharan Africa. The Gates Foundation has 
done a great deal and we have been working with them very 
closely in the development of our title and what we are trying 
to do. But there are many others who think we need greater 
bilateral efforts.
    I wonder if you would speak to what you think the United 
States ought to be doing on a bilateral basis that could make a 
difference in the infrastructure-building, the delivery 
capacities, to deal with this crisis.
    Finally, and this is tied to that second question, the 
Clinton Administration has now designated AIDS as a security 
threat, and some people have difficulty, Mr. Ambassador, 
understanding the way the dots are connected, that that in fact 
is real. I thought it would be important for you to share with 
the committee why this is in fact a security threat and why 
therefore the United States needs to think about its own 
responses to it perhaps differently.
    Ambassador Holbrooke.  Thank you, Senator Kerry, and thank 
you again for coming to New York and going to Cambodia. You had 
a real major impact on the Cambodia issue and, as I said a 
moment ago, it is very helpful in regard to Foday Sankoh and 
Sierra Leone.
    On your three points, first of all, UN peacekeepers do 
spread AIDS. They bring it with them and they take it home with 
them. Anyone who thinks differently is misleading themself. 
Some countries do not insist on testing. The U.S. insists on 
it--we test every soldier before he or she goes overseas. If 
they have AIDS they do not go overseas; they get treated. But 
that is not true of many countries.
    This is one of these truths that no one wants to utter. We 
have made enormous progress since Vice President Gore came on 
January 10th. As I said before you arrived in the room, on 
Monday of next week--and we have invited all members of this 
committee to join us in New York for what I think will be 
another historic day--we will pass the first health Security 
Council resolution in history.
    It is about HIV-AIDS. We will do it--we are waiting until 
Monday so Peter Piot can come back from the Durban conference 
to join us. This resolution will instruct the UN peacekeeping 
office to take actions with the peacekeepers.
    Now, we cannot order the member states to test every 
soldier before they go to peacekeeping missions. We cannot get 
there. But this is a huge step forward, and it goes beyond 
peacekeeping. We have introduced this into the record. By the 
way, we are ready to strengthen this between now and Monday if 
any of you think we can do so.
    I want to stress one last thing, Mr. Chairman. This 
resolution is going to be supported by Russia, China, and 
countries which as recently as 6 months ago did not want to 
discuss the issue in the Security Council. They are going to 
vote for it Monday. This is a tremendous step forward for the 
UN.
    This goes to your third question, if I can skip your second 
for a minute, Senator Kerry. Why is it a security threat? Well, 
unless one wants to define security threats as simply the 
number of independently targeted warheads on the tip of a 
missile, unless one's definitions of national security are 
trapped forever where they were 50 years ago--and no one in 
this room would believe that--we have to discuss threats to our 
security.
    Does anyone in this room not believe that the spread of 
AIDS is a threat to our own economic and social stability? 
There are reports the rates are beginning to rise slowly in 
parts of this country. Does anyone believe that we can commit 
triage by continents and put a wall around Africa and keep AIDS 
within Africa? It is impossible. Speak to the Spanish, who are 
very worried about it slipping up across the Straits. Even if 
we could do triage by continents, would it be politically, 
morally correct for us to do so?
    Today's Washington Post carries reports of promising new 
delivery systems. There are all sorts of things going on under 
the pressure that this committee and the rest of us have 
brought to bear, and we will continue.
    I would just say one last thing, Senator Kerry. I believe 
that--this is a very extreme statement, but I really believe 
that, of all the issues, of all the issues that we face in the 
world today, if you ask what is the number one problem in the 
world today, I would say it is AIDS, despite all the other 
issues. It is the worst health epidemic in at least a century, 
some would argue 6 centuries. It is continuing unchecked.
    All of us, all of us will have to ask ourselves, when our 
careers are done, did we address this problem? That is why I 
think the support of this committee--Senator Helms' support--
for what Senator Boxer and Senator Smith and you and others 
have put forward--Senator Feingold, Senator Frist--is 
historically important. I cannot imagine any of us in public 
life wanting to leave public office without saying we did what 
we could.
    It is the toughest and biggest of all the issues, not just 
in Africa. Africa is just the current epicenter. So I thank you 
for raising that question.
    The Chairman. Senator Frist.
    Senator Frist.  Thank you, Mr. Chairman, and thank you for 
holding--
    Ambassador Holbrooke.  I apologize. There was one other 
question, on the bilateral effort that--
    The Chairman. We will catch that on the second round.
    Ambassador Holbrooke.  I apologize.
    Senator Frist.  Thank you, Mr. Chairman.
    Mr. Ambassador, I appreciate your honesty as we address the 
Sudan and that less attention than deserved has been placed in 
this particular area and that this will be changed in the 
future. As was mentioned, I did spend last week in the Sudan in 
areas that very few Americans have ever been. I had the 
opportunity to go to areas that are the so-called no-go zones, 
zones where the United Nations flights for Operation Lifeline 
Sudan have been banned.
    Nothing really substitutes for being on the ground. The 
areas I visited were the Nuba Mountains and the Blue Nile 
regions, where the United Nations Relief Organization's 
Operation Lifeline Sudan is prohibited from going.
    I also went to areas just south of the oil concessions held 
by China, Malaysia, and Canadian firms and, although they are 
not no-go areas on a permanent basis, access is very 
restricted. In the particular area that I visited, there were 
in the immediate area 7,000 displaced peoples, a total of about 
31,000 that had been displaced from an area of these oil 
pipelines.
    The conditions I found were miserable. I say that as a 
physician, I say it as a human being. Really appalling, as the 
government of Sudan is prosecuting a war in these regions that 
essentially is ethnic cleansing of black Africans to secure 
these areas of the oilfields and the pipelines. As you know and 
as we have discussed in part, in going back and looking over 
the last 11 years I conclude that the United Nations has not 
even put up a struggle to the restrictive terms that have been 
used to allow these so-called no-go zones: relief not going in 
and without relief there is no transparency, and thus Sudan can 
be hidden, the atrocities, the slavery, the suffering, and the 
death.
    I recall just 3 days ago being asked as I sat in a region 
of the Blue Nile with a very simple statement. The statement 
was a question really, and the leader told me, he said: ``Are 
we not humans, too? Does not the UN cover us as it covers those 
on the other side of the arbitrary line the government has 
imposed?''
    Now we are at a point currently in Washington and in New 
York that the government of Sudan is poised to gain significant 
concessions in the United Nations on two points. Number one is 
the lifting of sanctions imposed after the attempted 
assassination of President Mubarak of Egypt and, amazingly to 
me, assuming a seat on the Security Council.
    While the UN is asked to concede to Sudan, at the same time 
the UN relief operations in Sudan still suffer under what, now 
based on personal observation, I conclude are unacceptable and 
unjust constraints which are being used as a tool of Khartoum 
in the war. The bottom line is that the UN has had a massive 
feeding program for select areas of Sudan, but really not doing 
anything more.
    The United Nations has not used in any way, I believe, its 
potential to push or compel or otherwise seek peace in Sudan 
through relief operations. The UN's presence has been very 
generous as you look over the past in terms of numbers of 
dollars and amounts of food, but all of this has effectively 
become a substitute for real action in terms of peace.
    I guess my bottom line is that at the very least, 
humanitarian access should be based on need. What I saw, 
whether it was in the southern part of Sudan, where flights are 
not banned, or in the Blue Nile or in the Nuba Mountains, the 
needs are exactly the same in terms of the humanitarian 
requirements, what is needed.
    The terms today seem to be no flights, bans used as an 
instrument of war. It seems to me that unfettered humanitarian 
access is the issue that we can make considerable progress on. 
My question is is this not a reasonable starting point in an 
effort to change the UN from this past really feckless 
substitute policy into a tool for achieving peace in Sudan?
    Because my time is up, I ask today for your commitment to 
use your efforts and that of the administration to end these 
no-go areas and the flight bans in Sudan.
    The Chairman. I tell you what I am going to do. I am going 
to give you 2 minutes of my time and 2 minutes to John Kerry, 
Senator Kerry.
    Ambassador Holbrooke.  Should I reply?
    The Chairman. Proceed.
    Ambassador Holbrooke.  First of all, Senator Frist, again I 
want to express my admiration for you. Senator Feingold and I 
wanted to make a similar trip, but were unable to get 
authorization from our security people. I would like to 
continue the dialogue in private.
    I will commit myself to you right here and now to convey 
all your views in writing to the Secretary General as you 
expressed them and to follow up vigorously and personally. I 
agree with everything you have said as I understand the 
situation. On the ``go, no-go'' areas, you are absolutely 
correct.
    On the sanctions, I want to be very clear, Mr. Chairman, 
for the record where we stand. We were approached last month by 
several countries and asked if we would lift the sanctions and 
they wanted to introduce a resolution. I told the Sudanese 
ambassador directly and the countries that had supported this 
that we would happily veto this proposal if they wished to 
introduce it, and that if they wished to have a serious 
dialogue with us in any detailed form, then it would probably 
be better to defer this dialogue until after the election. We 
are ready to talk now; however, this issue was so complicated, 
and it was appropriately something that the new administration, 
the new Congress, would be seized of. But we are ready to talk 
with them.
    Our position is clear: They must give up the three 
terrorists who tried to kill President Mubarak; they must 
comply with the sanction provisions; and we must have a 
cessation of this indiscriminate bombing of things like 
Samaritan's Purse Hospital and others. The Sudanese then 
withdrew their proposal. So we were ready to veto and will veto 
if they put it back in, but I do not think it will be 
necessary.
    On the UN seat--oh, and I want to stress one more thing. No 
deal was made. As Senator Frist and I have discussed privately, 
there is no deal whatsoever of any change in policy towards the 
Sudan based on their delay. In any case, how could there be, 
because if the issue is delayed until after the election it 
falls to another group of people to decide.
    Now, to your second point on the UN seat, we will oppose 
that with every ounce of effort we have. That is Susan Rice's 
main mission at the OAU summit in Togo today. Nancy Powell was 
on the phone earlier this morning trying to get an update in 
case you asked the question. We will submit it for the record 
as soon as we can, Mr. Chairman.
    Unfortunately, the OAU may make them their candidate, in 
which case we hope there will be an alternative candidate we 
can support. We of course will oppose Sudan. If they do get on 
the Security Council, we will deal with that when that happens.
    The Chairman. Thank you very much. Now, do you remember the 
second question of Senator Kerry?
    Ambassador Holbrooke.  I sure do. It was on the NGO's and 
greater bilateral efforts on the infrastructure area. Senator 
Kerry, your knowledge base on this is far greater than mine. I 
am not an expert on health delivery systems. I notice in the 
Durban reporting there has been movement in this area. I do not 
have a clear answer to you. I would prefer to submit it in 
writing. I think you probably know the answers better than I 
do.
    But I would share your view that what Bill Gates and Ted 
Turner and others are doing through their foundations is 
enormously valuable and deserves our credit. But we must have 
better delivery systems for the treatment process, that is 
clear. That is something that the international community 
cannot afford to pay for. It must come from local means.
    I am sorry that my answer is inadequate to the import of 
your question, but it is above my competence level. I am not an 
expert in health delivery systems, and I know you actually know 
far more than I do about it.
    Senator Kerry.  Well, I thank you. I think it would be 
important if we could all work through a little bit how we are 
going to adequately be able to improve the infrastructure and 
what bilateral efforts we could make. I have some suggestions 
on that at another time, Mr. Chairman. But I do think it is 
critical because I do not think the NGO's can do it alone. On 
the other hand, some of the governments have faced corruption 
problems and infrastructure problems. So it is going to take a 
very special kind of effort to adequately cope with it, and I 
think we need to engage in that discussion.
    Thanks, Mr. Chairman.
    Ambassador Holbrooke.  Mr. Chairman, may I ask a question, 
sir?
    The Chairman. Sure.
    Ambassador Holbrooke.  Has Dr. Piot testified before any of 
you? Because I think if you brought Dr. Piot down here to have 
a discussion with you on this issue and Senator Frist's points, 
I think it would be very valuable. If you wish, I would be 
happy to convey some informal invitation to him next week. I 
leave this to you, but a connection between him and you I think 
would be very valuable.
    The Chairman. Very well.
    Senator Biden.
    Senator Biden.  I will be very brief. I have a lot of 
questions. I will submit some to you, Dick, Mr. Ambassador, in 
writing. But I have one question. The need is obviously 
overwhelming. It is great, not only in the health side of the 
ledger, but in the peacekeeping side. The capacity is 
questionable to do anything about it, and yet you are 
constantly put in the position of having to make 
recommendations to the President of the United States and in 
turn to us as to how the United States bilaterally should 
participate in peacekeeping, and it is a hard sell. It is a 
very hard sell.
    You make a compelling case that there is no infrastructure 
in New York, the peacekeeping office is overwhelmed, the 
capacity, the technical capacity, the military leadership, the 
internecine squabbles that go on make it very--I do not want to 
be too strong, but not a particularly competent operation.
    How do you square the circle? How the heck do we convince 
people here we should put money into operations that, if you 
take a look at their critique of the way the operation is being 
conducted and the structure that oversees the operation, is as 
bad as it is?
    Ambassador Holbrooke.  Senator Biden, I think your question 
goes to the core of the dilemma. The current situation in the 
peacekeeping office is not acceptable, not only to us, not only 
to your committee, but to the Secretary General and the people 
who work there themselves. They are very brave, hard-working, 
dedicated people, but they are overburdened and understaffed.
    So we face--since the current situation is untenable--we 
face two options: improve and reform it, or let it collapse. If 
we let it collapse, it is going to implode and from Sudan to 
Sierra Leone to East Timor the problems will mount and the U.S. 
will get dragged in directly unilaterally or outside the UN 
system. It will be much more expensive.
    So my answer to your question--it is not a perfect answer, 
but it is the best I can do, and I have thought a lot about 
it--is to work with them to improve the system. I would like, 
with your permission and that of Chairman Helms, to return to 
the committee after we have the Brahimi report on peacekeeping 
and talk to you further about what this entails. It may mean 
more resources.
    But we cannot leave the situation where it is today. We 
either have to make the UN carry out functions which are 
important to the U.S. (without NATO-level direct U.S. military 
involvement, in which case the UN has got to do a better job), 
or else we have to decide what we are going to do in these 
places.
    Senator Biden.  Mr. Ambassador, you have made some 
significant contributions already since you have been there. If 
you somehow are able to be the catalyst to structurally alter 
the way in which peacekeeping is administered, you will be--I 
mean this sincerely--you will be making the most significant in 
my view, the single most significant contribution any 
ambassador has ever made representing this country to the 
United Nations.
    It is the core failure in my view of the institution. I 
hope others--I will not take any more time because others are 
to speak and we have another panel, but I would like to at 
another time get into some significant detail with you about 
whether other major powers share your concern, whether there is 
enough interest to generate a consensus to force the change 
that needs to be taken, et cetera. But I do not want you to go 
into that now because we have other panels.
    Ambassador Holbrooke.  Just two sentences, Senator Biden. 
One, other countries do share a concern. Two, the meeting that 
you and Senator Helms and your colleagues chaired in this 
chamber with the Security Council was a seminal event in 
improving communications and improving our chances of getting 
the reforms under Helms-Biden. I cannot--I do not know how far 
we are going to get in this area, but we have made huge 
progress. I know we are going to return to that in a minute. 
And we will look forward to the dialogue.
    Senator Biden.  Thank you very much.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman. I will 
use most of my time in this round for a statement and if the 
chairman permits and there is another round I will certainly 
want to ask some questions.
    I would like to thank the chairman. I want to thank 
Ambassador Holbrooke for being here to testify before the 
committee. As the Ambassador said, last December I had the 
pleasure of traveling in Africa with him, working along side 
him. I respect his skill and I admire his courage. One thing I 
have learned over the years as I have served on the African 
Subcommittee is that taking on African issues means opening 
oneself to a storm of inevitable criticism from the many Afro- 
pessimists who are blind to the region's vast potential and 
would prefer to ignore it entirely and also from those who take 
in the vast needs of the continent and demand that the U.S. 
take the lead to solve every problem.
    Given my awareness of these pitfalls, I confess to feeling 
a little bit overwhelmed by the topic of this hearing, a bit 
overwhelmed and also a little bit concerned. The UN is involved 
in so many parts of the vast African continent and each 
situation is characterized by its own complexities and its own 
stakes. While I commend the committee's desire to explore these 
important topics, I fear we are in a little bit of danger of 
painting with an overly broad brush, drawing sweeping 
generalizations about the potential for UN success or failure 
without considering the nuances of each individual case. In 
other words, obviously Sierra Leone is not Congo and it is not 
Eritrea and Ethiopia and that is not Sudan. These are very 
different situations that just happen to be in the same 
continent, and it is too easy to generalize.
    That said, I think it is possible to draw out some general 
principles that should guide the U.S. approach to the UN's work 
in Africa. Certainly the U.S. should take the lead in 
encouraging the United Nations to address these global issues 
to which it is well suited, issues like infectious disease and 
particularly the AIDS crisis. Again, I really want to commend 
Ambassador Holbrooke's leadership and efforts in this area. I 
saw him take the raw material from what we saw on our trip and 
turn it into a real international commitment and I am very 
grateful for that.
    The U.S. should be a force pushing for accountability when 
the UN is faced with conflicts involving terrible atrocities, 
as is the case in Sierra Leone and the Congo. Perhaps one of 
the most important lessons to be drawn from the recent crisis 
in Sierra Leone is that the United Nations will fail if the 
peace it works to enforce is fundamentally unjust. I look 
forward to hearing even more during the hearing about what the 
UN is planning to pursue with regards to accountability in 
Sierra Leone.
    The UN should work to reinforce the role of the regional 
organizations play in resolving African conflicts. Ultimately, 
I think these regional groups bear the burden in terms of 
troops and stability of these conflicts, and I am very 
frustrated by the lack of progress made by the Joint Military 
Commission in Congo because that institution has such an 
important role to play there. And I believe that a regional 
force may still have an important role to play in Sierra Leone. 
On this front, as the Ambassador has suggested, it is 
particularly important for the United States to continue to 
bolster reform in Nigeria, West Africa's superpower. The Sierra 
Leone crisis has clearly illustrated the very real U.S. and 
international interest in a strong and democratic Nigeria.
    The United States must work within the UN to reverse the 
appearance, Mr. Chairman, of a double standard in international 
affairs, where African crises are somehow less urgent and 
African lives somehow less valuable than others. But as 
Ambassador Holbrooke has often articulated, staying engaged in 
Africa requires getting it right and proving to the pessimists 
that Africa is by no means hopeless. Getting it right requires 
a solid peace agreement, as we have seen in Sierra Leone with a 
failure to get it. It means insisting the conditions of the 
agreement actually be implemented, as we are trying very hard 
to do in Congo.
    As this committee embarks on an examination of UN policy in 
Africa, it is also important to remember that the United 
Nations cannot succeed without United States leadership, as the 
very troubling recent OAU report on Rwandan genocide so 
accurately pointed out.
    So I look forward to working with my colleagues and the 
Ambassador to ensure, more than anything else, that failures 
like Rwanda remain in our past and do not become part of our 
future.
    Mr. Chairman, if there is time I would ask this question: 
Mr. Ambassador, when you and I traveled in Africa in December, 
one of the hopeful points that struck me about the Congo crisis 
was that the Presidents of Zimbabwe and Uganda seemed willing 
to work together on the Lusaka Accords and together to pressure 
other parties to do the same. How do President Mugabe of 
Zimbabwe's recent choices to disregard the rule of law, the 
international community, and the long-term stability of his own 
country in the name of retaining power affect his role in the 
Congo conflict? Is there a way in which he can continue to 
still play a positive or constructive role in this situation?
    Ambassador Holbrooke.  I appreciate your remarks, Senator 
Feingold. On the double standard, I really try to explain to 
Africans there is no double standard. My best answer is: Every 
other part of the world claims they are not getting enough 
resources, either. But there is always the sense of the double 
standard in Africa. Africa is tough, but it is not hopeless and 
we cannot turn our backs on it.
    I think the turnout this morning illustrates to the world, 
I hope, that you have 10 percent of the Senate came to this 
hearing this morning on Africa. I think that is a very dramatic 
statement.
    On Zimbabwe, Senator Feingold, what has happened inside 
Zimbabwe has additionally complicated the situation in the 
Congo, but I do not think one affects the other.
    On the Sierra Leone regional force, we are in exactly the 
same position as you are. My letter exchange with Senator 
Gregg, which you and I have discussed, addresses the Nigerian 
and Ghanaian role. Ambassador Pickering's really important trip 
starting tomorrow I hope will result in him returning to this 
committee and addressing with you in detail how we can deal 
with both strengthening Nigerian democracy and dealing with the 
RUF and Sierra Leone.
    On the JMC, the Joint Military Commission in the Congo, it 
has not moved forward since you and I visited its rather sorry 
headquarters in Lusaka. Most of the work being done in the area 
now is being done by the UN, I regret to say.
    On accountability in Sierra Leone, I have already addressed 
that. We absolutely share your view and I will share with you 
on a private basis what we intend to do as soon as we can.
    The Chairman. Thank you, sir.
    I know Senator Brownback will forgive me. The distinguished 
Senator from California has been here for a great while and I 
want to recognize you out of order.
    Senator Boxer: That is very kind of you, Senator Brownback, 
Senator Helms.
    It is always wonderful--[Bell rings.]
    Senator Boxer: Is that it?
    It is always wonderful to see you, Ambassador Holbrooke. I 
am very proud of the job that you are doing.
    I want to say, Mr. Chairman, I want to thank you again for 
really helping us fight this AIDS epidemic. I mean, it is so 
discouraging and depressing, but yet when it came to this issue 
where I was working with Senator Smith you were right there 
with your staff and you looked at our request and you put it in 
the bill.
    It just lifts my heart, because when you look at what is 
happening in Africa and we hear today that life expectancy at 
birth in southern Africa, which had risen from 44 years in the 
early fifties to 59 years in the early nineties, which is low 
in and of itself, has been set back to age 45 in the next 10 
years because of this epidemic. We hear if it should continue 
and we are not successful, people are saying, Mr. Chairman, the 
life expectancy could go to 30 years of age. That is childhood. 
From my perspective, that is childhood.
    So I want to thank you so much for what you did. And I want 
to say that I have a number of questions, so I am going to run 
through them very quickly on the AIDS issue. Ambassador 
Holbrooke, when the Vice President came to speak to the United 
Nations on AIDS he said: ``We must talk about AIDS not in 
whispers, but openly and boldly.'' A very hard thing to do. I 
learned it in California when I was in the House, very 
difficult.
    But I want to ask you--and I hope you will take notes 
because I am going to go quickly on these questions so youhave 
enough time--do you feel that the leaders in Africa are 
beginning to talk about this in a more honest and open way? 
What is your assessment of that?
    Also, there has been a great new development. We know that 
we can stop the transmission from mother to child with this new 
drug, Nuveripine. If you give it to HIV-positive pregnant women 
you cut the infection way back, maybe by 80 percent. But we 
know that in Africa if a woman--because it is the cultural norm 
to breast feed your child, breast feeding can undo all the good 
of the drug. Have you looked at this issue and do you have any 
advice on what could be done to lessen that stigma of saying to 
a woman, make the sacrifice for your child?
    The last question I would--well, two more. One: The hopeful 
signs seem to be in Senegal and Uganda. It sort of goes to what 
Senator Feingold said about let us not lump all the nations 
into one, because there we see that AIDS is not spreading as 
fast as in other African countries. What are these nations 
doing that can be emulated elsewhere?
    Finally, how have the refugees from the many conflicts in 
Africa contributed to the spread of AIDS?
    Mr. Chairman, when we look at Africa we are looking at 
death by wars, 200,000 in 1998; 2.2 million by AIDS. So we are 
fighting here, trying to help the fight against disease and 
against wars.
    I would ask you in the remaining time if you could answer 
those questions. And thank you again, Mr. Chairman.
    Ambassador Holbrooke.  Thank you, Senator Boxer. I am 
always delighted to work with you on these issues.
    Number one, are leaders in Africa are more open and honest 
than they have been in the past? Well, some are, some are not. 
Every leader in Africa now pays lip service to the issue, but 
some leaders it is only lip service. Denial is a real problem. 
Senator Feingold and I saw that on our trip.
    Now, that leads to your third question--I will come back to 
your second in a minute--why Senegal and Uganda? This is a 
really important question, and I would add Thailand into the 
mix, too. Why did Senegal, Uganda, and Thailand take the rates 
down while they soared in neighboring countries? And let us not 
forget the subcontinent, where it is very serious also in 
India.
    I believe it is a combination of very strong leadership, 
particularly President Museveni in Uganda, former health 
minister Mechai in Thailand, and other leaders, who just 
understood, Senator Boxer, what you understood a decade and a 
half ago because of your experience 2 decades ago in 
California, and that is the issue of stigmatization. If you 
pretend anything other than that the disease is what it is, you 
cannot get there.
    Mr. Chairman, I would like to just recount one incident 
which I think illustrates it all. The Prime Minister of 
Mozambique is a doctor. In fact, I think he was a gynecologist, 
Dr. Mocumbe. He came to New York and he told the most 
extraordinary story, which I think answers Senator Boxer's 
question and also her previous question about breast-feeding.
    He has gone around to the local leaders in Mozambique and 
he said: What is the word for AIDS in your native language? And 
they say: We do not have any. He says: Well, what do you call 
it? Then comes the answer which tells you how serious the 
problem is. In most of the areas, he said, it is called ``the 
disease of women.''
    Now, if you call it the disease of women the game is over 
before it has started, because men say they cannot get it or 
they have these great myths about how to get rid of it. One of 
the greatest myths with the greatest--and forgive my 
explicitness, but it needs to be said--one of the greatest 
myths in parts of Africa is that you can cure yourself if you 
have sex with a virgin, when in fact what you are doing is 
spreading it. It is horrendous.
    Now, the only way to deal with these problems is openly. 
President Museveni in Uganda did so and the rate dropped from 
30 percent to 9 percent. It is not surprising that this is a 
difficult issue to educate people on in Africa, where 
communications and education levels and language are a problem, 
if you consider that all of us can remember 15, 20 years ago in 
the United States the myths that we were all living with. I 
remember in New York City people would not go to certain 
restaurants because they thought they would get it from the 
waiters. Now we have learned how it is transmitted.
    So education is the key, and that brings me to your second 
question, about mother to child transmission. You are 
absolutely right, Senator--and the New York Times did an 
article on it the day before yesterday--about the cultural 
pressures for breast-feeding. There is only one answer to this: 
education, de-stigmatization.
    Women are told that they are failing their family and their 
clan if they do not breast-feed. So they will do it even if 
they know that they are going to transmit the disease, or they 
will not get tested because they do not want to know. Senator 
Feingold and I saw this first-hand when we visited the clinics. 
We visited six very brave women in Namibia who told us they had 
the disease, but they came to us in a covered van, Mr. 
Chairman, and they met with us in a room with the curtains 
drawn, because they said they would lose their jobs and be 
thrown out of their families. So it is education, Senator 
Boxer. It is de-stigmatization.
    Finally, the refugee role. Refugees are part of the 
problem, just as peacekeepers are, and we have addressed that 
in the Security Council resolution, which I think is a major 
step forward.
    Senator Boxer: Thank you very much, Mr. Chairman. The 
Chairman. Senator Brownback.
    Senator Brownback.  Thank you very much, Mr. Chairman.
    Thank you, Ambassador, for coming and presenting to us. I 
appreciate the comments I have heard. Two issues I want to 
raise with you. One is, the United States Congress and the 
President signed into action a Religious Freedom Commission 
about a year ago. It has been active for about a year. Their 
number one country of concern, number one country of concern 
about the lack of religious freedom, the greatest level of 
religious persecution in the world today that they are 
concerned about, is the Sudan that they have put forward in the 
documents and the findings.
    That does not mean that there are not other places around 
the world where there is difficulty. They are saying there you 
have a conflict of such clarity on ethnic and religious basis 
that this is the case that they raise the most.
    I would point out to you directly one of the ways that the 
UN is being involved in this religious persecution is in the 
Operation Lifeline Sudan, where they are allowing food to be 
flown into certain regions and not into others, and it is 
resulting in deaths, it is resulting in genocide, based on an 
ethnic and religious basis. I would really hope, really hope, 
that you would help us out on seeing that that food relief can 
go everywhere where it is needed.
    This is Operation Lifeline Sudan, operated by the United 
Nations, and it is being used in this horrifying fashion, in a 
truly horrifying fashion. I have been in the country as well 
myself, and two millions deaths that have occurred, have taken 
place. I do not see how we can possibly even stand to not 
confront them on the issue of slavery that is still in place 
and there. So I would really hope that the United Nations would 
step up on this issue, because it is being used in such a 
hideous fashion, the food aid being misdirected.
    A second one, and you have addressed it somewhat here 
earlier, Senator Wellstone and I have a piece of legislation, 
it is cleared through--there is a companion piece that has 
already cleared through the House, held several hearings here--
on sex trafficking and the level of that taking place around 
the world. Our own government estimates around 600,000 
primarily young women and children being moved from one country 
to another by flesh traders, moving people for sex trafficking, 
some for the very thing that you just talked about earlier: 
Some people believe that if they have sex with a virgin that 
they will get rid of AIDS.
    I have met with some of these girls in different countries 
that have been returned from being tricked, deceived, forcibly 
taken from villages, submitted to these brothels, this sort of 
trade, and then coming back, two thirds of the with AIDS and-or 
tuberculosis, coming back to die, some cases spreading that in 
other places.
    This is involved in Africa as well. It is being--organized 
crime is involved as a part of it in some places. I do not know 
the extent that that would be the case in Africa. But this is 
something that I think deserves your attention as well, and I 
would hope that you would step forward and address that issue, 
too.
    So those two in particular.
    Ambassador Holbrooke.  Mr. Chairman, Senator Brownback, I 
am very grateful for your comments. I would like to ask Nancy 
Powell, if she could join me, to add a word on these two issues 
after I make a quick comment.
    First of all on your sex trafficking bill you and Senator 
Wellstone have submitted, we support it. The administration 
supports it and we look forward to working with you.
    Secondly, in a colloquy I think while you were out of the 
room with Senator Frist, we discussed the OLS-UN issue.
    Senator Brownback.  No, I was here during that.
    Ambassador Holbrooke.  Oh, I am sorry.
    Senator Brownback.  I just wanted to focus you back that I 
was hopeful you would commit that we will get this food into 
areas that it is not being delivered to today.
    Ambassador Holbrooke.  Absolutely. What I will gladly 
commit to today is to use this hearing as the leverage point 
for a written communication with the Secretary General as soon 
as he returns from Africa conveying the concerns expressed 
today and associating the administration fully with them.
    Secondly, on the no-go zones, on the division between OLS 
and non-OLS aid and so on, I lived through the Bosnia situation 
where the UN negotiated with the oppressive forces the terms 
under which the victims were being held. I found it 
inexcusable, and what you have in Sudan is a replay of it at a 
much higher level of intensity.
    Senator Brownback.  And numbers.
    The Chairman. That is what I meant, higher level, higher 
numbers. It is just wrong and it has to be stopped, and we 
cannot let the aid be politicized, and I commit myself to 
working on that issue aggressively.
    With your permission, Senator, I would like to ask Acting 
Assistant Secretary Powell to add a few words on the overall 
issue that you and Senator Frist raised on negotiating with 
Khartoum, the sanctions and so on.
    The Chairman. Well, let me say that I welcome the lady, and 
please help me to move into the other half of this hearing. We 
are happy you are here. We recognize you.
    Ms. Powell.  If I could just comment very briefly, the 
Special Envoy Harry Johnston to Khartoum has put this among his 
highest priorities, to work on the issue of access for 
humanitarian relief, both OLS and non-OLS. The U.S. government 
has also been supporting the non-OLS NGOs who have access to 
some of these areas to ensure that greater numbers of people 
are receiving food assistance from the United States.
    We will continue to work with the UN, but Special Envoy 
Johnston is also working very hard with Khartoum on this issue, 
also on the bombing of civilians, particularly hospitals and 
other civilian targets.
    The Chairman. Thank you very much.
    Now, one final note on another subject. Bring me up to date 
on the revision or proposed revision of the assessments at the 
United Nations.
    Ambassador Holbrooke.  In furtherance of my commitment to 
you a year ago during the confirmation hearings, Mr. Chairman, 
the entire United States Government, not just our mission in 
New York, but everyone up to and including President Clinton, 
is working to revise the scale of assessments. There are two 
main components to this that are still before us: the regular 
assessment reduction and the peacekeeping revision.
    We have made major progress. We have gotten ourselves back 
on the ACABQ, Israel is now back--is now for the first time in 
40 years in a regional group, two pledges I made to you a year 
ago, both of which we were told by our staff we would not 
achieve, and we achieved them both. We are now--we have gotten 
the peacekeeping scale of assessments on the agenda for the 
first time in 27 years, because we have this outmoded, 
ridiculous system from 1973, an American proposal, but only 
designed for one operation in the Sinai in '73 by Dr. Kissinger 
and still in place.
    Now, where do we stand? The regular assessment request to 
go down is one that I think will be manageable. It will be 
tough, but there is not a lot of money involved. The really big 
one is peacekeeping, Mr. Chairman. We have succeeded in getting 
it on the agenda for the first time in 27 years. We now need to 
get it on the formal agenda for the session this fall.
    We have a lot of support, but some countries are still 
opposing a change. What we are seeking to do is broaden the tax 
base of the UN. Right now it is like a flat, step pyramid. The 
bottom rung is 155 countries that pay 2 percent in total. Then 
there are about 20 countries that pay about 15 percent and 
about 8 countries that pay over 80 percent. Those eight 
countries begin with the U.S. and Japan, which together pay 
half, almost half, and then go right on to France and Germany 
and the Brits.
    Now, it is just not acceptable, and there are certain 
countries that have gotten a lot richer since 1973 that ought 
to pay their share and a few that have gotten poorer. South 
Africa wants to pay less; we agree.
    I want to thank you, Mr. Chairman, for the letters you have 
sent on behalf of this effort directly to some of the countries 
in question. I do not think it would be helpful to our mutual 
effort to name the countries in public, but those letters have 
been received loud and clear in capitals. I will be traveling 
to some of these countries. I have already been to others. 
President Clinton and Secretary Albright are deeply engaged in 
this issue.
    No poor country will be asked to pay any more. There is no 
African country that will have to pay any more under our 
proposals. But there are countries that can pay more. Six 
countries have already voluntarily said they will give up their 
discounts. You have already publicly praised them. For the 
record, however, let us state who they are: Cyprus, Israel, 
Hungary, Estonia, Latvia, and in some ways most importantly, 
the Philippines, most importantly because the Philippines is 
the only one of those six whose per capita income is below the 
world average. But the Philippines said, we will be the first 
Asian country.
    So far no OPEC countries have done this and no Gulf State 
countries, and many rich countries, countries that have a 
capacity to pay more, have yet to join. But we have just begun, 
and we have growing understanding. We will report to you 
further. The denouement of this will come in December. That is, 
the crunch comes in December. But I can assure you and the 
committee today that President Clinton and Secretary Albright 
will make this a major agenda item during the General Assembly.
    The Chairman. Well, I thank you. I am not going to 
reiterate what I attempted to say when I appeared in New York 
before the Security Council, but it has a great deal to do with 
the attitude of the American people. Good or bad, that is the 
way it is. It is good that you came here this morning, nothing 
bad about it at all. You are your usual eloquent self and I 
thank you for doing it, and I thank you, ma'am, too.
    So we will move to the second panel. He is an equally 
distinguished gentleman who happens to be a close personal 
friend of mine. But we will give it just a minute to make the 
change. [Pause.]
    The Chairman. The committee will come to order, and you 
folks who are leaving are going to miss the good part of this 
hearing this morning.
    Franklin Graham, son of Billy and Ruth Graham, has been a 
long-time friend of mine, one whom I have admired as I have 
admired his daddy and his mama and his sisters and his 
brothers. Yours is a great family.

STATEMENT OF REVEREND WILLIAM FRANKLIN GRAHAM, III, PRESIDENT, 
   CHAIRMAN, AND CHIEF EXECUTIVE OFFICER, SAMARITAN'S PURSE, 
                     BOONE, NORTH CAROLINA

    Reverend Graham.  Thank you, sir.
    The Chairman. I am so proud of your sister who lives in 
Raleigh and she is making her mark.
    Just for the record, would you repeat briefly about the 
development in your father's health. And pull the mike a little 
closer to you.
    Reverend Graham.  Mr. Chairman, for the last 10 years my 
father has been diagnosed with Parkinson's and he has been 
treated for that disease. They have recently discovered that 
that is not the case. He has what they call normal pressure 
hydrocephalus. This is the build-up of fluid in the brain. They 
have been able to install two shunts which drain this fluid off 
the brain. It has made a dramatic difference in his health. He 
has really improved. He can walk now better than he has been 
able to for the last 10 years. He is much more alert. So we are 
very grateful, very thankful, to the doctors that have been 
able to help him.
    The Chairman. Well, I am going to mix church and state for 
just a minute and say, praise the lord.
    Reverend Graham.  Thank you, sir.
    The Chairman. You may proceed.
    Reverend Graham.  Mr. Chairman and members of this 
committee, I want to thank you for this opportunity to be here 
today to testify to this committee on the tragedy that is 
occurring in Africa, especially in the country of the Sudan. As 
a minister of the gospel of the lord Jesus Christ, I come here 
because I have seen first-hand some of the tragedies of this 
land.
    Some 136 years ago, our Nation endured a tragic and bloody 
Civil War to end slavery once and for all. On November 9th, 
1863, President Abraham Lincoln in his Gettysburg Address 
reminded us of the great sacrifices of those who died and the 
unfinished work that is before us as a Nation. That unfinished 
work is still before us today. The unfinished work of freeing 
all men and abolishing slavery forever is still before us in 
this new millennium.
    Any nation that practices, encourages, and condones slavery 
at any level, in my opinion that government should be 
considered an illegitimate government. The entire world 
community should come together to use all influence and power 
available to bring about a governmental change in that country 
so that the words of Abraham Lincoln might be fulfilled, not 
just in this Nation, but in all nations, for all men.
    When you look at the Sudan today, black Africans are still 
bought and sold into slavery. We see burned-out villages, we 
see mutilated bodies, families torn apart, religious 
persecution, equal to that of the Holocaust. Ethnic cleansing 
has forced millions to flee their homes and land for their 
lives. A lot of this is due to the oil exploration. The 
government of Sudan has purposely targeted Christians and 
minorities of other faiths. Over the last 15 years in the 
Sudan, the current government has overseen the annihilation of 
more than 1.9 million southern Sudanese.
    I come today to speak about what I know and what I have 
witnessed. Sudan is one of Africa's largest nations. We have 
already had the privilege of working in a few places in this 
great country. But the stories of atrocities are all too 
familiar. Wherever we work, stories of rape, children, women, 
and young men being abducted into slavery by the government 
militias, pastors who have been crucified, amputations, and 
others.
    At Samaritan's Purse we have worked for the last 10 years 
to relieve some of the pain and suffering of the southern 
Sudanese. I chose to be involved because I believe it is the 
right thing to do. It is certainly not the most popular. Only a 
few show interest outside the Christian community. Our current 
administration and news media have all but forgotten the call 
of freedom from the black Africans of the southern Sudan.
    While working in the Sudan, our desire has been to help 
position the people to help themselves. We have provided 
chickens, farm tools, seeds, relief supplies, and medical 
assistance. We currently operate one of the largest hospitals 
in the southern Sudan, helping more than 100,000 people, some 
who have walked as many as 4 days to reach us.
    For our efforts, the government of the Sudan for the last 
few months has bombed our civilian hospital in Lui on five 
separate occasions. Every time our personnel hear the drone of 
engines, they run for cover, fearing the bombs are coming. Our 
personal experience at being bombed has cost the lives of 
innocent civilians on the ground. It has caused damage to our 
hospital, struck fear in the hearts of the people, and made us 
question our purpose and our commitment to the black Christians 
of the southern Sudan.
    As a minister and a leader of this organization, I bear the 
responsibility for the safety of my team. I have offered to 
evacuate those who may want to leave. To date, we are thankful 
to God that our hospital remains open and our team is still in 
place. It is only by the grace of God and by his strength that 
we continue.
    The suffering that we have encountered is minuscule 
compared to the suffering that the entire population of the 
southern Sudan has endured. We have been mere spectators. Our 
hands on occasions seem tied. We have little financial and 
material resources compared to the need. The lines for 
logistical support are long. Food, medicine, and personnel have 
to be flown in at our expense from neighboring nations. Our 
planes are subject to the threat of constant attack and, due to 
the lack of bridges, convoys by road are almost impossible. 
Basically, the only way in and out is by air.
    Last week, Senator Bill Frist visited our hospital, 
performed surgery, and Senator Frist noted the war is getting 
worse and peace may be further away because of the fighting 
around the oilfields, and that after 17 years of conflict and 
11 years of international relief operations supplying food to 
the starving the war is no closer to a resolution.
    Indeed, the crisis has only grown stronger in recent years 
due to the oil money that has fueled Khartoum's immoral 
campaign. One of the largest North American oil companies doing 
business in the Sudan is Talisman Energy, headquartered in 
Calgary, Alberta, Canada. On May 1st I met with Talisman's 
President, Jim Buckey. I asked the president, Jim Buckey, 
before the annual shareholders meeting that if he would use his 
influence to meet with the government of Khartoum to try to get 
them to end their atrocities against their own people. The 
Talisman shareholders voted to give the company one year to 
show progress on its commitment to improving the plight of the 
Sudanese people.
    Obviously, much more needs to be done. The governments of 
the world could alleviate much of the plight of the southern 
Sudanese. When several thousand white Kosovars were killed and 
ten thousands displaced, the world called it genocide. But 
sadly, when 1.9 million black Africans are killed and millions 
more displaced, tortured, and even sold into slavery, our world 
leaders remained strangely silent and western governments not 
only failed to take punitive action, such as imposing sanctions 
or initiating military intervention, they continue to trade 
openly with the government of Sudan.
    I hope and pray that the words of Abraham Lincoln will not 
be in vain and that we as a Nation will not turn our backs on 
the unfinished business that is still before us, the freeing of 
all slaves and the idea that all men are created equal.
    Thank you, Mr. Chairman.
    [The prepared statement of Reverend Graham follows:]

               Prepared Statement of Rev. Franklin Graham

    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify before this committee on the tragedy in the 
Sudan. As a minister of the Gospel of the Lord Jesus Christ I come 
today because I have seen firsthand some of the tragedies of this land.
    Some 136 years ago our nation endured a tragic and bloody civil war 
to end slavery once and for all. On November 9, 1863, President Abraham 
Lincoln in his Gettysburg Address reminded us of the great sacrifices 
of those who died and the unfinished work before us as a nation. That 
unfinished work is still before us today--the unfinished work of 
freeing all men and abolishing slavery forever is still before us in 
this new millennium.
    Any nation that practices, encourages, and condones slavery--at any 
level--in my opinion, that government should be considered an 
illegitimate government. The entire world community should come 
together and use all influence and power available to bring about a 
governmental change in that country so that the words of Abraham 
Lincoln might be fulfilled--not just in this nation--but in all 
nations, for all men.
    When you look at the Sudan today, black Africans are still bought 
and sold into slavery. We see burned-out villages, mutilated bodies, 
and families torn apart and religious persecution equal to that of the 
holocaust. Ethnic cleansing has forced millions to flee their homes and 
land for their lives. The government of Sudan has purposely targeted 
the Christians and minorities of other faiths. Over the last 15 years 
in the Sudan the current government has overseen the annihilation of 
more than 1.9 million southern Sudanese.
    I come today to speak about what I know and what I have witnessed. 
Sudan is Africa's largest nation. We have only had the privilege of 
working in a few places, but the stories of atrocities are all too 
familiar wherever we work: stories of rape, children, women, and young 
men being abducted into slavery by government militias, pastors being 
crucified, amputations, and others.
    At Samaritan's Purse we have worked for the last ten years to 
relieve some of the pain and suffering of the southern Sudanese. I 
chose to be involved because I believe it is the right thing to do. It 
is certainly not the most popular. Only a few show interest outside the 
Christian community. Our current administration and news media have all 
but forgotten the call of freedom for the black Africans of southern 
Sudan. While working in the Sudan our desire has been to help position 
the people to help themselves. We have provided chickens, farm tools, 
seeds, relief supplies, and medical assistance. We currently operate 
one of the largest hospitals in the southern Sudan, helping more than 
100,000 people--some who have walked as many as four days to reach us. 
For our efforts, the government of Sudan over the last four months has 
bombed our civilian hospital in Lui five times. Every time our 
personnel hear the drone of engines they run for cover for fear that 
bombs are coming.
    Our personal experience has shown us that the bombing has cost the 
lives of innocent civilians on the ground. It has caused damage to our 
hospital, struck fear in the hearts of the people and has made us 
question our purpose and our commitment to the black Christians of 
southern Sudan.
    As a minister and the leader of this organization, I bear the 
responsibility for the safety of my team. I have offered to evacuate 
those who may want to leave. To date, we are thankful to God that our 
hospital remains open and our team is still in place. It is only by the 
grace of God and by His strength that we continue. The suffering that 
we have encountered is miniscule compared to the suffering that the 
entire population of the southern Sudan has endured. We have been mere 
spectators. Our hands on occasion seem tied. We have little financial 
and material resources compared to the need. The lines for logistical 
support are long. Food, medicines, and personnel have to be flown at 
our expense from neighboring nations. Our planes are subject to the 
threat of constant attack. Due to the lack of bridges, convoys by road 
are almost impossible. Basically the only way in and out is by air.
    Last week, Senator Bill Frist visited our hospital and performed 
surgery. Senator Frist noted that ``the war is getting worse and peace 
may be further away because of the fighting around the oil fields. 
After 17 years of conflict and 11 years of international relief 
operations supplying food to the starving, the war is no closer to a 
resolution.''
    Indeed, the crisis has only grown stronger in recent years due to 
oil money that has fueled Khartoum's immoral campaign. One of the 
largest North American oil companies doing business in Sudan is 
Talisman Energy, headquartered in Calgary, Alberta, Canada. On May 1st 
I met with Talisman president Jim Buckee just before their annual 
shareholders' meeting and challenged him to use his influence to appeal 
to the Khartoum government to end these atrocities against their own 
people. Talisman shareholders voted to give the company one year to 
show progress in its commitment to improving the plight of the Sudanese 
people. Obviously, much more needs to be done in this direction.
    The governments of the world could alleviate much of the plight of 
the southern Sudanese. When several thousand white Kosovars were killed 
and tens of thousands displaced, the world called it genocide. But 
sadly, when 1.9 million black Africans are killed and millions more 
displaced, tortured, and even sold into slavery, our world leaders 
remain strangely silent. And Western governments not only fail to take 
punitive action such as imposing sanctions or initiating military 
intervention, they continue to trade openly with the government of 
Sudan.
    I hope and pray that the words of Abraham Lincoln will not be in 
vain and that we as a nation will not turn our backs on the unfinished 
business that is still before us--the freeing of all slaves and the 
idea that all men are created equal.

    The Chairman. Franklin, I am confident that the taping of 
this hearing is continuing, and I want to thank you for coming 
here and, as the old saying goes, telling it like it is, 
because the media, here and there they will mention it and have 
a story and so forth, but they are too interested in too many 
conventions to confront what is going on.
    Now, for the record and so that those here and those who 
may be listening on television, I want you to tell me a little 
bit about Samaritan's Purse. I have talked about Samaritan's 
Purse that you have founded and the tremendous job you are 
doing all over the world. And I do not mean for you to be 
embarrassed at this question, but it needs to be known what a 
private Christian entity can do, and you are doing it and I 
praise the lord for you.
    Now, when did you found Samaritan's Purse?
    Reverend Graham.  Mr. Chairman, the organization was 
actually started in 1970 by the late Dr. Bob Pierce. He died in 
1978 and I took the leadership of that organization in 1978 and 
have been trying to give the leadership since that time. It has 
grown considerably over the years. We have had the opportunity 
to work in this past year in over 70 countries.
    Our focus is to take war areas and famine areas of the 
world, to help people that the world has passed by, and do it 
in the name of God's son, the lord Jesus Christ. We believe 
that Christ gave the example of the good samaritan, the story 
of a man who was beaten and robbed and left for dead and others 
saw and chose not to get involved and passed him by, but 
samaritan stopped and helped him and got him on his feet and 
got him going again.
    That is really our mandate, is just to take people along 
the ditch of life's road and help them and try to strengthen 
them and get them on their way again. That is what we are doing 
in the Sudan, is try to help these people that are in a 
terrible ditch and to try to help them to strengthen 
themselves, to feed themselves, and when we can to bandage 
their wounds, and do it in the name of our lord and savior 
Jesus Christ.
    The Chairman. You and I have talked about your work there 
and I have undertaken to help you as best I can as a Senator. 
But I do not see how you address as many problems as you do. 
For example, Honduras, just to pull one country in this 
hemisphere. They had a disaster there, and I want you to tell 
me a little bit, not boastfully because that is not your 
nature. You are not a boastful man. But I think the people 
ought to understand what you did and got no credit for in the 
media.
    Reverend Graham.  Well, our support, Senator, comes from 
the private sector, from Christians, churches, around the 
world. So we have a lot more freedom than some agencies or some 
groups, because we respond to the areas we feel God is calling 
us to. We feel that he helps us, enables us. Anything that we 
do, Senator, is because God has given us the ability and the 
strength and the people and the resources from his church 
around the world to help us to do it.
    On Honduras, after the storm we felt the greatest need for 
the people in that nation was shelter. People needed homes. 
Homes were destroyed. The infrastructure of the country was in 
a mess. Bridges were gone. We put a helicopter down there to 
help in the transportation. But our greatest goal was to put 
people back into houses.
    The first year we were able to build over 3500 homes. These 
would be cement block with a steel roof. We have--USAID now is 
helping us with the second 3500 homes. The first came from the 
private sector, but they saw what was done. So we give God the 
glory and we thank him for their help and their support.
    But the work continues. So that will be well over 6,000 
houses, we believe, by the end of this year that we will have 
been able to build in about 11 different communities in 
Honduras.
    The Chairman. I am just picking the little threads out of 
the fabric. What do you do at Christmas for children all over 
the world? I want you to talk about the shoe boxes.
    Reverend Graham.  Senator, that is very kind of you to 
mention that. We have a program called Operation Christmas 
Child, where we ask churches and families to take an empty shoe 
box and fill them with items for a child. We started this about 
10 years ago. We collected--at that time we were working in 
Bosnia. That was the height of the war. In our first year we 
took 11,000 boxes to Bosnia to the children. These boxes came 
from, again, churches and families in thiscountry.
    This past year we were able to do, if I am not mistaken, it 
is a little over 3 million boxes, and this year we are trying 
to go for 4 million boxes. But these boxes are distributed in 
over 60 countries. We work with churches. We are still working 
in Bosnia. We still take them there. We go to Kosovo. We will 
be in the Sudan with these gifts, North Korea, all over the 
world.
    The Chairman. What percentage would you estimate of the 
children who get these boxes would not get anything at all for 
Christmas had it not been for Samaritan's Purse?
    Reverend Graham.  Well, if it was not, I think, for the 
Christian families and the churches that have provided these 
gifts, it would be well over 90 percent of these children will 
have never gotten a gift in their life, much less a gift at 
Christmas. This would be the first gift they have ever had in 
their life.
    The Chairman. I have got to tell you, I had in my office 
one day last year when I called you, I had a lady named Molly 
Broad, who is the President of the Greater University of North 
Carolina. She had come to talk to me about East Carolina 
University, which was hit hard by Hurricane Floyd. I had just 
gotten a report from Governor Hunt that the roads and highways 
all over that part of eastern North Carolina were impassible 
because trees had fallen, telephone poles, live wires, and all 
the rest of it.
    They said, what are we going to do, what are we going to 
do? This is almost an impossible job. So I said, I am going to 
call Franklin Graham.
    Do you remember that call?
    Reverend Graham.  Yes, sir, I sure do.
    The Chairman. Do you remember what you told me?
    Reverend Graham.  I do not remember that, no, sir.
    The Chairman. You said: Well, I have got three cargo planes 
loaded with chain saws and I have got several hundred 
Christians from the southeastern United States flying in to 
operate the chain saws to grind up the trees and clear the 
roads and so forth. And you had already done that before any 
government even did anything about it. I have used that example 
many, many times as the power of what you are doing in the 
lord's name.
    Now, I am going to be criticized for being this casual, I 
suppose, but I want you to know I admire you very, very much, 
and I think you already know that, and I have loved your dad 
and mama. A lot of people are surprised to learn that your 
mother was born in China.
    Reverend Graham.  Yes, sir.
    The Chairman. The daughter of a great medical missionary.
    One final thing. I want you to discuss what you did in 
North Korea, which I think did more than any government 
diplomat has done in the last 10 years toward bringing that 
country around toward moving in the direction of peace. Now, 
whom did you meet with and what did you do there?
    Reverend Graham.  It actually began about 7 years ago when 
my father was invited by Kim Il Sung, the late dictator, the 
president of the country, to visit North Korea. For some 
reason, Kim Il Sung liked my father and said he was the first 
American he met that he liked. He called my father family, and 
he really meant that, for some strange reason. He has welcomed 
since then my mother. He welcomed my father back for a second 
trip.
    Of course, he passed away and his son, Kim Il Jil, is now 
president of the country. I was invited to come and I met with 
the foreign minister. We met with various--the number two man 
of the country at the time. I am trying to think of his name. 
These Korean names are difficult for me, Senator Helms.
    But Mr. Chairman, the point of our work in North Korea is 
to help them with tuberculosis. They have a tremendous problem 
in that country. We are targeting 10,000 people for drug 
therapy over the next 6 months, and we believe that we will be 
able to cure about 95 percent of these people over the next 6 
months. Then we are going to target another 10,000. They 
estimate there is well over a million people in the nation that 
have tuberculosis, but you start somewhere, someplace.
    But they treated us in a tremendous way. We flew a private 
aircraft. It was the first private aircraft ever to go into 
North Korea.
    The Chairman. I understand that.
    Reverend Graham.  They were very gracious and, Senator 
Helms, they want relations, better relations with this country. 
They really do want peace. They are in a mess financially. 
Their country is backwards and is going backwards, not forward. 
They realize that and they know it, and they would like to have 
a better relationship with this Nation and they are not quite 
sure how to get there.
    I told them that I had a friend and his name was Senator 
Helms and I am sure that he would be glad to lend his hand if 
he could to better relations. But I think as a minister of the 
gospel of the lord Jesus Christ, wherever I go not only am I 
ambassador for this country, which I am proud of my Nation and 
I love my Nation, but I am also an ambassador of the king of 
kings and the lord of lords. I believe that wherever we go we 
should try to do our best to build bridges of understanding, 
better relationships, and even if they are our enemies, and we 
have many disagreements with North Korea, but we need to begin 
a dialogue of at least talking to these men and hearing their 
side of the story.
    There is a lot of good things in North Korean society, 
Senator Helms. I asked, who takes care of elderly people? Do 
you just put them off on a farm or a commune? Oh, no, the elder 
son has to take care of the mother and father. What happens if 
the elder son does not? Oh, that is just unheard- of; that 
would not be permitted.
    Is there divorce? Oh, no, very little divorce. What happens 
if there is divorce? Well, the community does not accept it.
    So there are some things we used to have in this Nation, 
strong family values that we have lost, that they still hold 
very dear in that part of the world, which I found to be 
extremely interesting. So I think there is a lot in North Korea 
that we can build on and some relations that we can develop 
there.
    The Chairman. I have a feeling you are absolutely correct.
    Mr. Berman, forgive me for this personal relationship with 
our friend here. I apologize for not calling on you earlier, 
but we will be glad to hear from you, sir.
    Mr. Berman.  Mr. Chairman, thank you.
    The Chairman. And pull the mike a little closer to you, 
please.

STATEMENT OF ERIC G. BERMAN, FORMER EXECUTIVE DIRECTOR, UNITED 
             NATIONS WATCH, BELMONT, MASSACHUSETTS

    Mr. Berman.  I appreciate having been given the opportunity 
to speak before you today on the United Nations role in 
peacekeeping in Africa. I will focus my remarks this morning on 
Sierra Leone, as I visited Freetown and regional capitals in 
May and June, but I request that my full statement be submitted 
as part of the public record.
    The Chairman. Yes, sir.
    Mr. Berman.  Until recently, UN peacekeeping had been 
reduced to a shadow of its former self, especially in Africa. 
Whereas more than 75,000 Blue Helmets served worldwide in 1993, 
by June 1999 there were fewer than 12,000. The corresponding 
numbers in Africa were some 40,000 and fewer than 1600.
    The UN Mission in Sierra Leone (UNAMSIL), established last 
October to replace a smaller observer force there, has seen its 
authorized strength doubled to more than 13,000 troops, as 
Ambassador Holbrooke mentioned earlier this morning. It is now 
larger than the global UN peacekeeping presence 12 months ago 
and there is discussion of enlarging the force still another 20 
percent to 16,500.
    The UN Security Council's robust response to the setback in 
Sierra Leone represents a significant and welcome shift from 
its recent disengagement from African peacekeeping. 
Unfortunately, its decision to send an increasing number of UN 
Blue Helmets to Sierra Leone will not likely help resolve that 
conflict and could erode support for worthwhile peacekeeping 
initiatives elsewhere in Africa.
    Counterintuitively, the threat posed by the Revolutionary 
United Front (RUF) will grow along with the number of UN 
peacekeepers sent to defend Freetown. As the UN force gets 
closer to impinging on the RUF's lucrative diamond mining 
operations, the rebels and their external supporters will 
attack UNAMSIL with greater intensity. The RUF needs to be 
engaged militarily and made to understand that there are 
consequences to its actions. If the RUF routinely suffered 
casualties, many of its soldiers would be more willing to risk 
the wrath of their commanders and surrender or run away. To 
date, UNAMSIL has too often been seen as a source of weapons 
for the RUF rather than as a professional military force 
deserving its respect.
    The existing mandate for UNAMSIL, though limited to self- 
defense, does permit UN troops to use deadly force and it will 
have to suffice. The lethal and professional response of the 
Jordanians two weeks ago to an RUF ambush shows what can be 
achieved within the existing rules of engagement. However, 
waiting to be attacked before fighting back demands a level of 
discipline and self-sacrifice that few countries will accept. 
Should the Jordanians and other UN contingents suffer serious 
casualties, they would likely leave the mission.
    Providing UNAMSIL with a peace enforcement mandate is not a 
viable solution, as it would be very difficult to find 
countries willing to contribute troops to such a mission. It is 
unlikely that Blue Helmets will prove equal to the task of 
engaging the guerrillas. The RUF's recent detention of some 400 
troops of the Zambian battalion is a case in point. It had 
little to do with the alleged failure of the UNAMSIL Force 
Commander to prepare the battalion adequately for its mission. 
First and foremost, the Zambian contingent's performance 
against the RUF is explained by an understandable reluctance to 
fight and die in someone else's war.
    Providing weapons to the Sierra Leone Army (SLA) and its 
pro-government allies, as is being done right now, the Civil 
Defense Force (CDF), is likely to prolong the conflict, not end 
it, given the country's tenuous and shifting alliances. The SLA 
and the Kamajors, the civilian militia that forms the backbone 
of the CDF, have little respect for the central government, 
which is universally perceived as weak.
    The recent decision by Johnny Paul Koroma to support 
President Kabbah is further reason for concern. Koroma, who as 
leader of the Armed Forces Revolutionary Council overthrew 
Kabbah in May 1997, has not since embraced the rule of law. 
Rather, he has developed a greater political savvy. His 
closeness to Kabbah is a reflection of his distance from, and 
disdain for, his former ally, the RUF and its leader Foday 
Sankoh.
    Ironically, the Sub-Regional Force, replaced because of its 
shortcomings by the UN, represents the best long-term prospect 
for promoting peace. The Nigerian-led Economic Community of 
West African States Monitoring Group (ECOMOG), is widely 
regarded as a largely ineffective and corrupt force. Whether or 
not the Regional Force's abilities were inextricably linked to 
its resources (or lack thereof), two things are clear: First, 
the July 1999 Lome Peace Agreement foresaw that ECOMOG would 
play the central role in overseeing the military aspects of its 
implementation; and second, the West failed to fulfill ECOMOG 
to support the role envisioned.
    Since ECOMOG's strengths and weaknesses were well known 
before Lome, the UN and the international community either 
should have authorized and deployed a sizable UN force to 
replace ECOMOG from the outset, or enabled ECOMOG to do the job 
requested of it, much as was done, albeit belatedly, in 
Liberia.
    The resulting delays strengthened the RUF by making it more 
difficult for the rank-and-file to take advantage of the 
amnesty and financial inducements to demobilize. Now that it is 
abundantly clear that the RUF must be engaged militarily and 
not just diplomatically, ECOMOG looks increasingly attractive 
because of its proven willingness to incur and inflict 
casualties on a scale others will not tolerate.
    Having said this, it is not clear if ECOMOG can fight such 
a war without committing too many excesses, as it did in 
response to the rebel attack on Freetown in January 1999, or if 
the United Nations will be able to accept such an imperfect and 
bloody solution.
    To be effective, however, an ECOMOG force would need 
significant UN supervision and Western assistance. To dispel 
disturbing allegations that many ECOMOG troops were more 
interested in entrepreneurial undertakings than in keeping the 
peace, ECOMOG must be monitored more closely. Nigeria's 
lamentations that its support for ECOMOG was costing it a 
million dollars a day did little to sway international public 
opinion, given persistent reports that Nigerian officers in 
ECOMOG were benefiting from the diamond trade.
    Nigerian troops, which formed the bulk of ECOMOG, must be 
better paid, better equipped, and better led. The prompt 
payment of salaries would improve morale and discipline in the 
short term. Sustained and generous Western assistance would be 
needed to help overcome shortcomings of command and training.
    The Council should give the UN a mandate and the resources 
to provide the logistical, air, signals, and medical units that 
the West African troops lack. The UN should also play a much 
more active role in disarmament, demobilization, and 
reintegration of ex-combatants. The reliance on the government 
of Sierra Leone in the DDR program was excessive. A strict and 
detailed accounting of each weapon should be made to help trace 
the weapons' origins. Weapons that were taken from UNAMSIL 
troops, with the exception of Guinea, should be returned to the 
troop contributor in question so that the UN does not have to 
reimburse them. Other weapons captured or turned in should be 
destroyed or disabled in situ. Regulations must be created and 
strictly enforced to ensure that any benefits package as part 
of the DDR program does not create a financial incentive to 
procure weapons, which has been the case in the recent past.
    An ECOMOG force coupled with a significant UN operation, 
but one much smaller than the current one, would also benefit 
the UN Organization Mission in the Democratic Republic of the 
Congo (MONUC). To date, as Ambassador Holbrooke mentioned, only 
some 200 of MONUC's authorized strength of more than 5,500 
troops have been deployed. It will be difficult to gain 
international support for expanding the UN presence in the DRC 
if the UN operation in Sierra Leone is seen to be bloated and 
directionless.
    Despite the inherent difficulties and significant expenses 
an expanded UN peacekeeping presence in the DRC would 
represent, a failure to act would also be costly. The Council 
should cautiously move beyond its limited deployment of 
military observers and liaison officers and send a sufficient 
number of formed units to Kisangani.
    The decision of Rwanda and Uganda to pull back their troops 
from the city is a welcome development. It has created new 
uncertainty, however, about who will control the city. If the 
UN does not fill the vacuum, then a new humanitarian crisis 
might develop as combatants seek to extend their influence. The 
Council must authorize and member states must provide 
appropriate forces, both in numbers and equipment, to 
accomplish this task.
    I should just reflect on Ambassador Holbrooke's comment 
earlier today about Pakistan, which has agreed to deploy 
troops. That is very important, but it is also important to be 
able to provide them with the equipment that they need, which 
right now they lack.
    There is understandable unease that attempts to make 
progress in such a piecemeal fashion will increase the 
possibility of a permanent split within the DRC. Nevertheless, 
the UN should seize on this chance to stabilize the situation 
in Kisangani, which is the country's third largest city.
    As for the possible UN mission in Eritrea and Ethiopia, the 
UN assessment team has yet to provide its findings and 
recommendations, so it is not clear what Secretary General Kofi 
Annan will propose to the Security Council and what the Council 
will authorize. One would hope that a relatively small observer 
force would prove sufficient. There are no rebel groups to 
contend with and both armies are well disciplined.
    Regardless of the UN force's eventual size, some way should 
be found to engage the Organization of African Unity (OAU) so 
that it might play a more active and capable role. A mission 
along the Eritrean-Ethiopian border is an excellent opportunity 
for the Addis Ababa-based Conflict Management Division of the 
OAU to gain invaluable experience and develop much-needed 
expertise. It is reasonable and desirable to expect the OAU to 
eventually take over for the UN mission and plans for such an 
eventuality ought to be worked into the mission from the 
outset.
    To conclude, as President of the Security Council in 
January of this year, Richard Holbrooke acknowledged the 
challenges facing Africa. He highlighted many of the 
fundamental issues that contribute to instability and made the 
resolution of African conflicts a higher item of concern on the 
U.S. and international agendas. This is an important 
achievement.
    Despite efforts by African countries to develop indigenous 
capabilities to promote peace and security on their continent, 
they still require significant assistance, much more than 
existing programs provide. Notwithstanding the setback in 
Sierra Leone, the UN and the West must play a more active role, 
directly through UN peacekeeping and indirectly by properly 
supporting regional undertakings.
    Mr. Chairman, thank you.
    [The prepared statement of Mr. Berman follows:]

                  Prepared Statement of Eric G. Berman

    Mr. Chairman, My name is Eric Berman. I am the co-author with Katie 
Sams of Peacekeeping in Africa: Capabilities and Culpabilities, which 
the United Nations published in April 2000.\1\ The book represents the 
culmination of a two-year project to review and analyze African 
peacekeeping experience, African efforts to develop structures to 
respond to armed conflict on the continent, and Western capacity-
building programs to develop African peacekeeping abilities. I 
appreciate having been given the opportunity to speak before you today 
on the United Nations' role in peacekeeping in Africa.
---------------------------------------------------------------------------
    \1\ Eric G. Berman and Katie E. Sams, Peacekeeping in Africa: 
Capabilities and Culpabilities, Geneva: United Nations, 2000, 572 pp.
---------------------------------------------------------------------------
    Until recently, UN peacekeeping had been reduced to a shadow of its 
former self--especially in Africa. Whereas more than 75,000 Blue 
Helmets served worldwide in 1993, by June 1999 there were fewer than 
12,000. The corresponding numbers in Africa were some 40,000 and fewer 
than 1,600. The UN Mission in Sierra Leone (UNAMSIL), established last 
October to replace its small observer force (UNOMSIL), has seen its 
authorized strength double to more than 13,000 troops. It is now larger 
than the global UN peacekeeping presence 12 months ago. There is 
discussion of enlarging the force another 20 percent to 16,500.
    The United Nations Security Council's robust response to the 
setback in Sierra Leone represents a significant and welcome shift from 
its recent disengagement from African peacekeeping. Unfortunately, its 
decision to send an increasing number of UN Blue Helmets to Sierra 
Leone will not likely help resolve that conflict, and could erode 
support for worthwhile peacekeeping initiatives elsewhere in Africa.

                              SIERRA LEONE
    Counterintuitively, the threat posed by the Revolutionary United 
Front (RUF) will grow along with the number of UN peacekeepers sent to 
defend Freetown. As the UN force gets closer to impinging on the RUF's 
lucrative diamond mining operations, the rebels and their external 
supporters will attack UNAMSIL with greater intensity.
    The RUF needs to be engaged militarily and made to understand that 
there are consequences to its actions. if the RUF routinely suffered 
casualties, many of its soldiers would be more willing to risk the 
wrath of their commanders and surrender or run away. To date UNAMSIL 
has too often been seen as a source of weapons for the RUF rather than 
as a professional military force deserving of its respect.
    The diamond areas must be retaken by force and returned to the 
government of Sierra Leone. Last week's Security Council resolution to 
prohibit the indirect or direct import of rough diamonds except for 
those controlled by an as-yet-non-existent ``Certificate of Origin'' 
regime represents a political achievement and an important 
precedent.\2\ Its effectiveness in weakening the RUF will be negligible 
in the short and medium terms. The RUF will continue its purchase and 
delivery of weapons with diamonds because those diamonds will remain 
available to them; governments and individuals involved will continue 
to deal in the illegal trade because the rewards are great and the 
risks slim. For any effort to control the trade of Sierra Leonean 
diamonds to be effective, Liberia must either be forced or cajoled into 
compliance. Presently, Charles Taylor will not comply voluntarily.
---------------------------------------------------------------------------
    \2\ See UN Document S/RES/1306 (2000), 5 July 2000.
---------------------------------------------------------------------------
    The existing mandate for UNAMSIL, though limited to self-defense, 
does permit UN troops to use deadly force, and will have to suffice. 
The lethal and professional response of the Jordanian troops two weeks 
ago when they came under an RUF attack near Mile 91 shows what can be 
achieved within existing rules of engagement. However, waiting to be 
attacked before fighting back demands a level of discipline and self-
sacrifice that few countries will accept. Should the Jordanians and 
other UN contingents suffer serious casualties, they would likely leave 
the mission. It would be very difficult to find enough countries 
willing to contribute troops to a mission in Sierra Leone with a peace 
enforcement mandate.
    It is unlikely that Blue Helmets will prove equal to the task of 
engaging the guerrillas. The RUF's recent detention of some 400 troops 
of the Zambian battalion is a case in point. It had little to do with 
the alleged failure of the UNAMS1L Force Commander to prepare the 
battalion adequately for its mission. The Zambian President publicly 
took the Force Commander to task for sending newly-arrived Zambian 
troops out to Makeni (where a detachment from the Kenyan battalion had 
come under attack) without maps and without an appreciation for the 
mandate. But the explanation for what happened lies elsewhere. A team 
of unarmed UN Military Observers (UNMOs) familiar with the terrain 
accompanied the Zambians to Lunsar, a town 40 miles west of Makeni. The 
UNMOs warned the Zambians to prepare for a possible RUF ambush and to 
defend themselves. First and foremost the Zambian contingent's 
performance against the RUF is explained by an understandable 
reluctance to fight and die in someone else's war.
    Providing weapons to the Sierra Leone Army (SLA) and its pro-
government allies the Civil Defence Force (CDF) is likely to prolong 
the conflict, not end it, given the country's tenuous and shifting 
alliances. The SLA and the Kamajors (the civilian militia that forms 
the backbone of the CDF) have little respect for the central 
government, which is universally perceived as weak. The recent decision 
by Johnny Paul Koroma to support President Ahmad Tejan Kabbah is 
further reason for concern. Koroma, who as leader of the Armed Forces 
Revolutionary Council overthrew Kabbah in May 1997, has not since 
embraced the rule of law. Rather, he has developed a greater political 
savvy. His closeness to Kabbah is a reflection of his distance from and 
disdain for his former ally, the RUF and its leader Foday Sankoh. Plans 
to restructure and professionalize the SLA are a worthwhile initiative 
but their effects are not going to be realized for a long time.
    Ironically, the subregional force replaced because of its 
shortcomings by the UN represents the best long-term prospect for 
promoting peace. The Nigerian-led Economic Community of West African 
States Monitoring Group (ECOMOG) is widely regarded as a largely 
ineffective and corrupt force. Whether or not the regional force's 
abilities were inextricably linked to its resources (or lack thereof) 
two things are clear. First, the July 1999 Lome Peace Agreement foresaw 
that ECOMOG would play the central role in overseeing the military 
aspects of its implementation. Second, the West failed to support 
ECOMOG to fulfil the role envisioned. Since ECOMOG's strengths and 
weaknesses were known well before Lome, the UN and the international 
community either should have authorized and deployed a sizeable UN 
force to replace ECOMOG from the outset, or enabled ECOMOG to do the 
job requested of it (much as was done, albeit belatedly, in Liberia). 
The resulting delay strengthened the RUF by making it more difficult 
for the rank-and-file to take advantage of the amnesty and financial 
inducements to demobilize. Now that it is abundantly clear that the RUF 
must be engaged militarily--and not just diplomatically--ECOMOG looks 
increasingly attractive because of its proven willingness to incur and 
inflict casualties on a scale others will not tolerate.\3\ Having said 
this, it is not clear if ECOMOG can fight such a war without committing 
too many excesses (as it did in response to the rebel attack on 
Freetown in January 1999), or if the United Nations will be able to 
accept such an imperfect and bloody ``solution.''
---------------------------------------------------------------------------
    \3\ Using private security companies to assist the government 
represents an intriguing policy option. Executive Outcomes, which the 
Sierra Leonean government hired in 1995, proved effective in countering 
the RIJF. Given mercenaries' storied and sordid reputations on the 
continent, however, it is unlikely that private security companies can 
be a part of viable official policy mix at present.
---------------------------------------------------------------------------
    To be effective, however, an ECOMOG force would need significant UN 
supervision and Western assistance. To dispel disturbing allegations 
that many ECOMOG troops were more interested in entrepreneurial 
undertakings than in keeping the peace, ECOMOG must be monitored more 
closely. Nigeria's lamentations that its support for ECOMOG was costing 
it a million dollars a day did little to sway international public 
opinion given persistent reports that Nigerian officers in ECOMOG were 
benefitting from the diamond trade. Nigerian troops (which form the 
bulk of ECOMOG) must be better paid, better equipped, and better led. 
The prompt payment of salaries would improve morale and discipline in 
the short term. Sustained and generous Western assistance would be 
needed to help overcome shortcomings of command and training. The 
Council should give the UN a mandate and resources to provide the 
logistical, air, signals, and medical units that the West African 
troops lack.
    The UN should also play a much more active role in disarmament, 
demobilization, and reintegration (DDR) of ex-combatants. The reliance 
on the government of Sierra Leone in the DDR program was excessive. A 
strict and detailed accounting of each weapon should be made to help 
trace the weapons' origins. Weapons that were taken from UNAMSIL 
troops--with the exception of Guinea \4\--should be returned to the 
troop contributor in question so that the UN does not have to reimburse 
them. Other weapons captured or turned in should be destroyed or 
disabled in situ. Regulations must be created and strictly enforced 
(with particular attention to group weapons, anti-personnel mines, and 
grenades) to ensure that any benefits package as part of the DDR 
program does not create a financial incentive to procure weapons.
---------------------------------------------------------------------------
    \4\ The Guinean battalion was relieved of its weapons on the way to 
joining UNAMSIL. UN and Western government officials familiar with the 
incident believe it was a commercial transaction rather than a hold up 
by the RUF.
---------------------------------------------------------------------------

                    DEMOCRATIC REPUBLIC OF THE CONGO
    An ECOMOG force coupled with a significant UN operation--but one 
much smaller than the current one--would also benefit the United 
Nations Organization Mission in the Democratic Republic of the Congo 
(MONUC). To date only some 200 of MONUC's authorized strength of 5,500 
troops have been deployed in the Democratic Republic of the Congo (DRC) 
and regional capitals. It will be even more difficult to gain 
international support for expanding the UN presence in the DRC if the 
UN operation in Sierra Leone is seen to be bloated and directionless.
    The situation in the DRC is sufficiently volatile and complex to 
raise legitimate questions as to the wisdom of supporting an expanded 
peacekeeping operation there. MONUC is faced with enormous logistical 
and political challenges. The UN was having a difficult time securing 
sufficient interest and capabilities among UN Member States before the 
most recent fighting between Rwandan and Ugandan troops in Kisangani. 
Several countries that had pledged troops to the mission are now 
reconsidering their offers.
    Despite the inherent difficulties and significant expenses an 
expanded UN peacekeeping presence in the DRC would represent, a failure 
to act would also be costly. The continued success of the Interahamwe 
as a capable fighting force can be attributed in large part to three 
separate Security Council decisions in 1994: first, the Council decided 
to drastically reduce the UN peacekeeping operation in Rwanda; second, 
it authorized Operation Turquoise; and third, it failed to support the 
Secretary-General's call for either a UN police or military observer 
presence to provide security for the refugee camps. In 1996 the Council 
authorized but did not field a military force in then Eastern Zaire, 
which led to what some have described as ``a second genocide,'' this 
time against ethnic Hutus. In 1998 the UN ill-advisedly left it to the 
Southern African Development Community (SADC) to respond to the 
rebellion in the DRC. Before long, troops from nine countries were 
fighting there. Moreover, a split has developed within SADC that 
threatens the subregion's peace and security.\5\
---------------------------------------------------------------------------
    \5\ Shortly after Angola, Namibia, and Zimbabwe sent troops to the 
DRC in support of President Laurent Kabila, those four countries signed 
a mutual defense pact. The possibility that Angola might wage war 
against Zambia, which Luanda has accused sporadically of supporting 
Jonas Savimbi is cause for concern.
---------------------------------------------------------------------------
    The Council should cautiously move beyond its limited deployment of 
military observers and liaison officers and send sufficient numbers of 
formed units to Kisangani. The decision of Rwanda and Uganda to pull 
back their troops from the city was a welcome development. It has 
created a new uncertainty, however, about who will control the city. if 
the UN does not fill this vacuum then a new humanitarian crisis might 
develop as combatants seek to extend their influence. The Council must 
authorize and Member States must provide appropriate forces--both in 
numbers and equipment--to accomplish the task. There is understandable 
unease that attempts to make progress in such a piecemeal fashion will 
increase the possibility of a permanent split within the DRC. 
Nevertheless, the UN should seize on this chance to stabilize the 
situation in Kisangani, the country's third largest city.

                          ERITREA AND ETHIOPIA
    As the UN assessment team has yet to return with its findings and 
recommendations, it is not yet clear what Secretary-General Kofi Annan 
will propose to the Security Council and what the Council will 
authorize. One would hope that a relatively small observer force would 
prove sufficient. There are no rebel groups to contend with and both 
armies are well disciplined.
    The Council should support a UN mission as the OAU is not yet ready 
to assume such a responsibility. The OAU, like several subregional 
organizations on the continent, has made progress in the past decade to 
assume a greater role in promoting peace and security. In the early 
1990s it fielded a small peacekeeping operation in Rwanda, which was 
notable given its earlier failure in Chad. The OAU subsequently 
established the Mechanism for Conflict Prevention, Management and 
Resolution, a smaller decision-making body called the Central Organ, 
and a separate Peace Fund. The OAU has since authorized observer 
missions in Burundi, the Comoros and the DRC, but all have been small 
and have suffered from logistical and administrative. problems.
    Regardless of the UN force's eventual size, some way should be 
found to engage the OAU so that it might play a more active and capable 
role in the future. The OAU's Conflict Management Division remains 
understaffed and overstretched. While improvements to the physical 
plant were necessary, greater attention needs to be paid to developing 
the human capital. A mission along the Eritrean and Ethiopian border is 
an excellent opportunity for the Addis Ababa-based Conflict Management 
Division to gain invaluable experience and develop much-needed 
expertise. It is reasonable and desirable to expect the OAU to 
eventually take over for the UN mission and plans for such an 
eventuality ought to be worked into the mission from the outset.
      recommendations concerning peacekeeping in africa in general
    Besides the suggestions made above concerning UNAMSIL, MONUC and 
the proposed UN peacekeeping operation in Eritrea and Ethiopia, the 
following recommendations relate to strengthening peacekeeping in 
Africa in general. They represent an abridged selection of those Katie 
Sams and I offered in our book, Peacekeeping in Africa.
Concerning Actions to be Taken by African States and Organizations
  <bullet> African states must place a greater emphasis on staffing 
        their organizations with sufficient personnel to assume new 
        responsibilities.

    Subregional organizations are creating mechanisms with inadequate 
regard for the ability to run them. In the Economic Community of West 
African States (ECOWAS) Secretariat, for example, the ``Department'' of 
Legal Affairs, which has also been responsible for supporting ECOWAS 
peace and security initiatives, consists only of a Director and a 
Deputy Director. Similarly, staff of the OAU's Conflict Management 
Division has not grown commensurately with the new demands it has been 
asked to meet. Fifteen people, including both professional and support 
staff, are insufficient to run the Conflict Management Centre's 24-hour 
Situation Room, let alone the entire Division. African organizations 
must recruit and train adequate qualified personnel to handle the 
greater demands being placed on their secretariats.

  <bullet> African states need to concentrate on making incremental 
        progress and resist the temptation to jump from one ambitious 
        plan to another without effect.

    African regional and subregional organizations should be more 
pragmatic about what they can and cannot accomplish in the short and 
medium terms. Overly-ambitious plans divert scarce resources from more 
realistic projects. For example, the Economic Community of Central 
African States (ECCAS) has created overlapping and ill-defined peace 
and security structures with insufficient regard for how they will 
operate and how its Secretariat will service them. Rather than creating 
new mechanisms, ECCAS members should now concentrate on making existing 
ones operational. In the short term, efforts to secure funding for 
joint peacekeeping training exercises or to establish an Early Warning 
Mechanism should be abandoned; member states should focus instead on 
developing the Council for Peace and Security in Central Africa (COPAX) 
and strengthening the ECCAS Secretariat. ECOWAS has also initiated 
several projects that appear far-fetched in view of present and 
foreseeable limitations. Its Sub-Regional Security and Peace 
Observation System, which is to comprise four Observation Monitoring 
Zone field offices, seems well beyond the organization's current 
capabilities, as does a standing peacekeeping force. ECOWAS members 
would be better served to forestall such plans and first concentrate on 
developing other aspects of the Mechanism, particularly the proposed 
Mediation and Security Council and numerous reforms to strengthen the 
Secretariat.

  <bullet> African multilateral military inteiventions need to be 
        placed firmly under civilian control.

    In the past, the OAU and African subregional organizations failed 
to adequately supervise the military activities of member states that 
were ostensibly acting in their name. Designating a civilian official 
to oversee the mission is a possible means of addressing this 
deficiency. Although the OAU and ECOWAS have both assigned Special 
Representatives for some of their operations, they have not always been 
effective. Financial and other organizational constraints make it 
difficult to provide these officials with appropriate staff. As 
President Amadou Toumani Toure proved in the Inter-African Force to 
Monitor the Bangui Agreements (MJSAB), however, a strong-willed, 
active, and respected individual with an appropriate mandate can 
achieve much with minimal support. Ensuring that consistent 
communication channels are established between the Secretariat and the 
field--a recurring problem for the OAU and ECOWAS--could also minimize 
misunderstandings and promote civilian control.
Concerning Actions to be Taken by Non-African Countries and 
        Organizations
  <bullet> Non-African capacity-building programs need to more 
        generously support the hiring and training of additional 
        qualified personnel within African regional and subregional 
        organizations.

    Although some non-African countries and organizations have financed 
additional posts within African organizations and helped train their 
staff, such assistance is rare and is conducted on a relatively small 
scale. The UK, which stands out among its peers as being particularly 
active in this regard, has paid for the secondment of OAU officers to 
the UN Secretariat and more recently has agreed to fund three political 
desk officers at the OAU Conflict Management Center's Situation Center 
for a three-year period. The European Union has underwritten the 
employment of short-term staff to assist the OAU Conflict Management 
Division. The United States has supported an exercise designed to test 
preparedness of the OAU Crisis Management Centre. Such initiatives 
should be expanded in order to enhance the operational capabilities of 
African regional and subregional organizations.

  <bullet> Donor countries should provide funding for conflict 
        resolution efforts first and ``early warning systems'' second.

    At present, the greatest challenge in promoting African peace and 
security is to find a meaningful response to existing conflicts and 
working to contain them. Broadly speaking, preventive diplomacy is a 
worthwhile and intelligent policy option. Several programs billed as 
``preventive,'' however, have been oversold--particularly ``early 
warning systems.'' Yet many donor countries and organizations devote 
significant scarce resources to these initiatives--often at the expense 
of more pressing and deserving conflict resolution efforts. Providing 
funding for peacekeeping missions to manage and resolve ongoing 
conflicts should take priority over providing funding for elaborate and 
expensive initiatives to collect and analyze data.

  <bullet> More non-African states should provide specialized training 
        to African contingents preparing to deploy to regional 
        peacekeeping operations.

    Most non-African capacity-building programs offer general 
peacekeeping training to troops and officers, covering basic skills. 
Western states have rarely given mission-specific instruction to 
African contingents preparing to participate in particular peacekeeping 
operations. Given that African regional peacekeeping operations often 
lack the resources and civilian support to properly brief and prepare 
participants upon arrival to the mission area, such training would fill 
a void. One of the criticisms leveled against current Western capacity-
building programs is that recipients may never actually use the 
training they receive in a peacekeeping operation. By providing 
training to contingents that have already committed to participate in 
peacekeeping operations, this concern would no longer hold.

  <bullet> Western states and organizations should more freely share 
        their data and analyses on African conflict areas with the UN 
        or African regional organizations.

    Many Western states and organizations have devoted substantial 
resources to monitoring and analyzing threats to peace and security on 
the African continent. Individual western countries have shared their 
findings with African states and organizations--albeit rarely. This 
type of assistance can be extremely helpful to regional peacekeeping 
initiatives in Africa as evidenced in Sierra Leone, where the UK has 
shared intelligence with ECOMOG commanders on the ground and provided 
the force with detailed maps of the area. It is understandable that 
much of this information cannot be shared given its sensitivity and the 
need to protect sources. However, there is much useful information 
gathered that is not of a sensitive nature that nevertheless is not 
divulged. This describes, for example, much of the reporting and 
imagery on African conflicts and crises that the Western European Union 
(WEU) Satellite Center has produced. The WEU should consider making 
some of this information available to either African states and 
organizations or to the UN.

  <bullet> The US African Crisis Response Initiative (ACRI) should 
        engage subregional organizations directly and not limit its 
        support to individual states on a bilateral basis.

    Working directly with subregional organizations has numerous 
benefits. It strengthens the role of the organizations' secretariats, 
which is important given the additional responsibilities the UN 
Security Council is asking those bodies to play in the promotion of 
peace and security. A subregional approach could also enable countries 
with small military forces to receive training that might not otherwise 
be possible. Smaller national units could train alongside contingents 
from other countries. These joint units could also serve as the basis 
for confidence-building measures among countries that have a history of 
distrust.

  <bullet> France's program of pre-positioning materiel in Africa to 
        support regional peacekeeping operations should be expanded.

    From its stocks in Senegal, France has provided vehicles and 
medical equipment to African peacekeeping operations in the Central 
African Republic and in Guinea-Bissau. RECAMP's long-term plans include 
establishing four more depots for such pre-positioned materiel--in 
Gabon, Djibouti, and tentatively Cote d'Ivoire and Reunion. Ideally, 
the depots should be spread out around the continent to better ensure 
the equipment's rapid availability. It may not prove practical to pre-
position equipment on Reunion, for example, given its location. If 
France were to develop this aspect of RECAMP in closer collaboration 
with African regional or subregional organizations, that might 
encourage other donor nations to contribute materiel to supplement 
France's own supplies. The standard equipment package could also be 
enlarged to include greater numbers of vehicles and spare parts. 
Additional non-lethal supplies such as communication equipment, 
generators, tentage, and rations could be provided as well.

  <bullet> The UK's decision to use development funds for non-military 
        training and assistance to foreign security forces and relevant 
        civilian bodies is a worthwhile initiative that merits 
        replication by other countries.

    The Security Sector Reform Programme of the UK Department for 
International Development (DFID) is a bold experiment with potentially 
significant results for African countries. Reforming the security 
sector is a new domain for development agencies, which have often 
restricted their support to non-military undertakings. Through the DFID 
initiative, substantial development aid will be used to train foreign 
security forces with the goal of rendering them accountable to civilian 
democratic authorities. Although it is still too early to know whether 
the Security Sector Reform Programme will make a notable impact, the 
effort provides adequate financial means for serious programs to be 
undertaken.
Concerning Actions to be Taken by the United Nations
  <bullet> The Security Council must provide greater oversight and 
        guidance to regional arrangements that intervene militarily in 
        the promotion of peace.

    While it may not always be practical or possible for the Security 
Council to give prior authorization for a regional organization or ad 
hoc initiative to deploy troops, the Council should require all such 
undertakings to provide it with timely and relevant information on 
their activities and the situation on the ground. Reporting 
requirements should be reasonable and clearly stated. Regional forces 
must be better sensitized to the needs and activities of international 
humanitarian relief organizations that work alongside them.

  <bullet> The Security Council should review its practice of 
        authorizing small military observer missions to serve alongside 
        regional peacekeeping forces.

    The deployment of UN military observers to complement non-UN 
peacekeeping forces is more likely to create new tensions than to serve 
as either a useful check and balance or a confidence-building measure. 
The regional force feels that it is being unfairly scrutinized, if the 
UN observer mission is critical in its reporting, tensions will 
increase. Because the small observer mission is dependent on the larger 
regional mission for security, there is a tendency to withhold 
criticism to maintain good relations. When security is not or cannot be 
provided, UN observer missions withdraw--at great financial and 
political cost Another problem of this approach is that such small, 
largely ineffective observer forces provide the Council with a pretext 
that it is meaningfully engaged in trying to resolve a conflict when it 
is not.

  <bullet> The Security Council should authorize specialized UN 
        contingents to serve within regional peacekeeping forces.

    Ask an African regional organization or a coalition of ad hoc 
states what kinds of UN assistance would best support their 
peacekeeping initiatives, and they are not likely to answer ``military 
observers.'' Yet that is exactly what the Council offers. Military 
observers responds to the Council's concerns, not those of the regional 
force. What African countries lack are specialized units with 
sophisticated or expensive materiel, such as aircraft, communications 
or engineering equipment. A well-equipped and trained signals unit 
would be an especially welcome addition to African operations, given 
that such initiatives often lack reliable communication links between 
headquarters and contingent or sector commands. Similarly, a well-
equipped logistics unit would also be helpful in light of the 
operational shortcomings African operations face. While the command 
structure of the force would potentially be a delicate issue, it is not 
insurmountable. Under such a scenario, the Council would be making a 
much better investment as formed units cost the UN much less than 
similar numbers of military observers. In addition, the Council would 
create a more symbiotic relationship between the UN and the regional or 
force.

    As President of the Security Council in January of this year, 
Richard Holbrooke acknowledged the challenges facing Africa. He 
highlighted many of the fundamental issues that contribute to 
instability and made the resolution of African conflicts a higher item 
of concern on the US and international agendas. This is an important 
achievement. Despite efforts by African countries to develop indigenous 
capabilities to promote peace and security on their continent, they 
still require significant assistance--much more than existing capacity-
building programs provide. Notwithstanding the setback in Sierra Leone, 
the UN and the West must play a more active role, directly through UN 
peacekeeping and indirectly by properly supporting regional 
undertakings.

    The Chairman. A very excellent statement. I commend you.
    I have been hogging the stage here. One of you two 
gentlemen.
    Senator Frist.  Thank you, Mr. Chairman.
    Mr. Berman, you heard much of the discussion earlier about 
Sudan in terms of the role of the United Nations Operation 
Lifeline Sudan, and a little bit about Samaritan's Purse's 
efforts. The war in Sudan is a longstanding one and a 
complicated one in some ways, in some ways much simpler than 
people think, especially when you see the various entities that 
are fighting and the things that can be done.
    Could you comment on how you see the United Nations playing 
a role in negotiating and participating and encouraging a 
peaceful settlement of that war?
    Mr. Berman.  Senator, thank you. I must confess that I am 
not an expert on the situation in Sudan. I did live in Nairobi 
for 6 months in 1998 and am familiar with a little bit of 
Operation Lifeline Sudan. I have listened to the remarks 
carefully this morning and I share with you the same concerns 
you have, that the current status quo is perpetuating an 
injustice.
    I think the UN has to be engaged in a different way than it 
has been and I do not believe that we should be relying to the 
extent that we now are on the regional organization, IGAD, 
which is right now taking the main role in trying to settle 
that conflict. But I do not have any--while I have concrete 
suggestions for UN policy and U.S. policy in other parts of the 
continent, I do not have it for Sudan. I am sorry.
    Senator Frist.  Thank you.
    Mr. Chairman, it has been fascinating for me. A fellow by 
the name of Kenny Isaacs in mid-1997, who is here today, 
basically explored the southern Sudan, probably not knowing 
exactly what he would find, about 4 months after his initial 
traveling through the southern Sudan began and initiated 
Samaritan's Purse's involvement in a hospital there in Lui. In 
January 1998 I had the opportunity to travel with Kenny and Dr. 
Richard Furman from Boone, North Carolina, who has been 
instrumental in a group called World Medical Mission, now a 
part of Samaritan's Purse, which puts about 500 physicians 
around the world every year in short-term missions.
    That was fascinating because over the 2 years in a 
community where there was nothing, where people had this sense 
of fear and would not come together, because there was a 
hospital, a hospital that attracted people, through that the 
health care, commerce began and a sense of community. That was 
for 2 years.
    Then in March of this year--and I was just there last week, 
operating once again. In March and April of this year, 42 
different bombs--Reverend Graham mentioned 5 different days. 
Well, we were able to actually count the number of bombs that 
fell. About 3 days ago I was standing in a crater 8 feet deep 
from one of these bombs. There was death, there was tragedy, 
all in an area where Samaritan's Purse has made a huge 
contribution.
    It is this needless bombing of civilians that is tolerated 
indirectly by the United States, and that is why this 
commitment today from Ambassador Holbrooke I think is terribly, 
terribly important.
    I just want to congratulate Samaritan's Purse for the real 
progress that has been made. Samaritan's Purse also in the past 
week, when I talk about the Blue Nile, about four tons of seed 
and medical supplies were introduced to an area that, simply 
because there is a flight ban there, have not seen that sort of 
delivery of supplies, again due to Samaritan's Purse. In an 
area which I mentioned earlier, Peguong, which is a fly zone, 
but limited access, where there are about 31,000 people 
displaced, again Samaritan's Purse over the last 3 weeks has 
delivered 20 tons of seed, not food but seed and fishhooks--a 
very self-reliant people--so that they can take care of 
themselves.
    Having had the opportunity to see on the inside this group 
work under some pioneering leadership has been a great 
privilege for me. It is very important, I think, to take that 
work and elevate it so other people can see, because we can 
change the policies which will open up these areas and change 
the destiny of that country.
    The Chairman. I am going to make a personal observation, 
Senator, that this committee and, I do not think, I know, the 
entire Senate is proud of you for what you have done and the 
way you have conducted yourself. I am proud to be a Senator 
serving with you.
    Senator Brownback.
    Senator Brownback.  Let me second that as well. I am proud 
to be able to sit by a person that has done so much, and also 
to be able to share with being here with Dr. Graham and the 
work that your organization has done, the comments that have 
been made here.
    I am puzzled, is really where I am today. I am puzzled. I 
come from a State that fought to become a part of the Union on 
the issue of slavery, ``Bleeding Kansas.'' We fought and the 
battle was raging around our State whether we would be a free 
or a slave State. That was 150 years ago and people of faith 
then came out, moved out to Kansas. They did not really come 
out to farm at that point in time. They stayed to farm, but 
they came out to fight. They came out to fight for freedom in 
places like Lawrence, and the New England Immigrant Aid Society 
and people of faith moving people there into Oswatamie, Kansas, 
and into Topeka.
    My mother is from Oswatamie. I have gone to school in 
Lawrence. I live in Topeka now. These are all very familiar 
things to me. Guerrilla warfare killed 200 people in some of 
these initial battles that began the Civil War. But they just 
found slavery so abhorrent, so abhorrent, that they would give 
up everything that they had to move to an unknown place to 
fight for freedom.
    We are 150 years later. We have freedom--we have slavery 
staring us in the face in the Sudan. Dr. Frist has seen it, I 
have seen it, you have seen it. And it is as if we are blind in 
the eye to it, that we will not even recognize it, we will not 
even see it. It is just so much in our past that we just, we 
cannot see it. It is like it is the elephant right here in the 
room.
    I am just puzzled. I do not understand it, why we cannot 
stand up and fight against slavery today, the slavery that is 
taking place in the Sudan. Maybe you can lend some light to why 
you think that this is not being addressed today. Maybe what we 
need to have is a new--and I am part of the one that is 
burgeoning now--a new abolitionist movement of people saying, I 
am a freedom fighter, I am going to fight against slavery, and 
we just start and push and call on people for this new 
abolitionist movement, that the fight against slavery is not 
over with.
    I would appreciate your thoughts on my ramblings and my 
puzzlements, Reverend Graham. Also, you are always welcome in 
Kansas. Any time you or any members of your family--you are 
good North Carolinians and you just recently tried to take one 
of our good Kansans to North Carolina in our basketball coach. 
But you are welcome any time.
    Reverend Graham.  Thank you, sir.
    The Chairman. We could not get your coach, though.
    Senator Brownback.  No, thankfully.
    Reverend Graham.  Mr. Chairman, the question of slavery 
disturbs me probably more than any other issue in Africa, that 
a nation would be permitted to continue doing this, why the 
world community has not said this is wrong, this is an outrage, 
and used its power. Why has not this government stood up, this 
government that has stood for freedom around the world in the 
past, why we have not stood beside the black Christians of the 
south and defend them against a racial war, a war that is Arab 
against black, Moslem against Christian? And why has the world 
not said anything? I do not know.
    But we do know that Sudan is not the only nation that 
practices slavery in Africa or in the Middle East. There are 
nations that have quite a bit of oil that western countries do 
business with and it has been well known for many years that 
slavery is still practiced in some of these countries. Not as 
much as it was at one time, but it is still done.
    So maybe that is one of the reasons, maybe it is oil, that 
we turn our back and close our eye. But I hope, Mr. Chairman, 
that this could become an issue once again in the halls of 
Washington, a call for freedom for our black brothers and 
sisters in Africa. If we do not speak on their behalf, who 
will?
    The Chairman. Amen.
    Any further comment? [No response.]
    The Chairman. Well, I thank both of you for being here and 
for your patience. Ambassador Holbrooke is always an 
interesting witness and very informative. But I think both 
panels were just exemplary today and I am proud of both of 
them, and I am grateful to you and to you and to the Senators 
who came today.
    Thank you very much. If there be no further business to 
come before the committee, we stand in recess.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]

                                    

</pre></body></html>
